<html>
<title> - UPDATE ON THE LATEST GLOBAL WARMING SCIENCE</title>
<body><pre>[Senate Hearing 111-1179]
[From the U.S. Government Publishing Office]



                                                    S. Hrg. 111-1179

                          UPDATE ON THE LATEST
                         GLOBAL WARMING SCIENCE

=====================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                              
                      ENVIRONMENT AND PUBLIC WORKS
                      
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 25, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works



       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               
                               _____________
 
                   U.S. GOVERNMENT PUBLISHING OFFICE 

94-021 PDF                  WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           FEBRUARY 25, 2009
                           
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     3
Lautenberg, Hon. Frank, U.S. Senator from the State of New Jersey     7
Bond, Hon. Christopher ``Kit'', U.S. Senator from the State of 
  Missouri.......................................................     9
Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....    14
Specter, Hon. Arlen, U.S. Senator from the State of Pennsylvania.    15
Merkley, Hon. Jeff, U.S. Senator from the State of Oregon........    17
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....    17
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    18
Cardin, Hon. Benjamin, U.S. Senator from the State of Maryland...    20
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................    22
Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......    23
Gillibrand, Hon. Kirsten, U.S. Senator from the State of New York    24
Crapo, Hon. Mike, U.S. Senator from the State of Idaho, prepared 
  statement......................................................   196

                               WITNESSES

Pachauri, Rajendra K., Ph.D., Chairman, United Nations 
  Intergovernmental Panel on Climate Change......................    25
    Prepared statement...........................................    28
    Responses to additional questions from Senator Cardin........    84
    Response to an additional question from Senator Sanders......    85
    Responses to additional questions from:
        Senator Inhofe...........................................    85
        Senator Crapo............................................    88
Field, Christopher, Ph.D., Director, Department of Global 
  Ecology, Carnegie Institution for Science, Stanford University; 
  Co-Chair, Working Group II, United Nations Intergovernmental 
  Panel on Climate Change........................................    91
    Prepared statement...........................................    94
    Responses to additional questions from Senator Cardin........   113
    Response to an additional question from Senator Sanders......   115
    Responses to additional questions from Senator Inhofe........   115
    Response to an additional question from Senator Crapo........   117
Frumkin, Howard, M.D., MPH, DR.PH., Director, National Center for 
  Environmental Health, Centers for Disease Control and 
  Prevention; Director, Agency for Toxic Substances and Disease 
  Registry.......................................................   118
    Prepared statement...........................................   121
    Response to an additional question from Senator Sanders......   146
    Responses to additional questions from Senator Crapo.........   147
Happer, William, Ph.D., Cyrus Fogg Brackett Professor of Physics, 
  Princeton University...........................................   149
    Prepared statement...........................................   152
    Responses to additional questions from Senator Inhofe........   163

 
                         UPDATE ON THE LATEST 
                         GLOBAL WARMING SCIENCE

                              ----------                              


                      WEDNESDAY, FEBRUARY 25, 2009

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Building, Hon. Barbara Boxer (chairman 
of the Committee), presiding.
    Present: Senators Boxer, Inhofe, Carper, Lautenberg, 
Cardin, Sanders, Klobuchar, Whitehouse, Udall, Merkley, 
Gillibrand, Barrasso, Specter, Bond.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The hearing will come to order.
    Today we are going to have a very esteemed panel to discuss
    the latest global warming science. Senator Inhofe and I 
will have 6 minutes, not 5, for our opening statements, and 
then the rest of our colleague will have five. And then our 
friends on the panel, our distinguished panel, all of you will 
have seven minutes in which to present, and then we will have 
questions.
    We are having this hearing because obviously we all feel we 
must be guided by the best available science as we address the 
challenge of global warming. This morning we will hear from 
several of the world's leading scientists about the latest 
global warming science.
    In 2007, the Nobel prize-winning Intergovernmental Panel on 
Climate Change, the IPCC, painted a stark and sobering picture 
of the future that awaits us if we fail to act quickly to curb 
global warming pollution. The IPCC's projections for North 
American include an increase in the frequency and duration of 
heat waves and heat-related illness; an increase in water-borne 
disease from degraded water quality; more respiratory disease, 
including asthma and other lung diseases from increased ozone 
or smog concentrations, particularly dangerous to children and 
the elderly; more winter flooding, reduced summer flows and 
intensified water shortages in the West due to reduced snow 
pack; droughts and insect invasions that will kill crops and 
forests and will leave forests more susceptible to fire; 
intensified storms that will batter coastal communities and 
habitats, with the damage compounded by erosion.
    Since 2007, new studies have confirmed the warnings sounded 
by the IPCC, and many of the latest findings suggest that the 
situation is more urgent than previously stated. Recent 
scientific reports have found that greenhouse gas emissions are 
increasing faster than predicted, black carbon soot is trapping 
more of the sun's energy in the atmosphere than previously 
understood, sea levels may be rising faster than previous 
estimates predicted, the likelihood of destabilizing releases 
of carbon from melting permafrost is greater than once thought.
    We are reminded of the mounting evidence of the threat 
posed by global warming in recent headlines. And I want to 
share some of these headlines with you. The Washington Post: 
Faster Climate Change Feared. The L.A. Times: West's Trees 
Dying Faster as Temperatures Rise. The Washington Post: Long 
Droughts, Rising Seas Predicted Despite Future CO<INF>2</INF> 
Curbs. And the San Jose Mercury News: Global Warming Danger 
Threat Increased.
    The testimony we hear today will underscore the urgent need 
to respond to these findings with decisive action. I am so 
pleased to welcome our witnesses today. Dr. Pachauri is the 
Chairman of the U.N. Intergovernmental Panel on Climate Change. 
In 2008, Dr. Pachauri accepted the Nobel Prize on behalf of the 
panel's 2,000 participating scientists. And he has been, I say 
to my colleagues, so generous with his time. If any of you have 
questions for him, he is there for you.
    We also have Dr. Christopher Field. He is with us from 
Stanford University. Dr. Field was the Co-Chair of Working 
Group II of the IPCC, which focused on the impacts of global 
warming. He is an expert on how global warming is already 
affecting North America, and the additional impacts that are 
likely to come with increased warming in the future.
    I am also pleased that we have Dr. Howard Frumkin here 
today. Dr. Frumkin is Director of the National Center for 
Environmental Health at the CDC. The last time the CDC 
testified here on the public impacts of global warming, we 
discovered that the written testimony had been heavily redacted 
by the White House. I am looking forward to the opportunity for 
a full accounting of the dangers global warming poses to human 
health.
    Dr. William Happer, a Professor of Physics at Princeton, is 
a witness for the minority today. And I also want to thank him 
so much for participating in this hearing.
    In one of his first major statements after the election 
last November, President Obama said ``Now is the time to 
confront this challenge once and for all. Delay is no longer an 
option. Denial is no longer an acceptable response. The stakes 
are too high, the consequences too serious.'' And in his speech 
last night, our President called on Congress to enact 
legislation that places a market-based cap on carbon pollution. 
And I believe we must and we will answer that call.
    I am convinced that when we address the challenges of 
climate change, the steps we take will create jobs, will 
reinvigorate the economy and will make us more energy 
independent. The science makes it clear that we must not wait 
any longer to get started. And again, I want to say to the 
scientists here, thank you so very much. You are here with no 
political agenda, you are here to tell us the truth as you know 
it, as you see it. And that is what will guide us, the science 
will guide us. So thank you again very, very much.
    And it is my pleasure to call upon our Ranking Member, 
Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you. Before my opening statement, let 
me just acknowledge, we have some very significant things in 
this Committee called Environment and Public Works that have 
nothing to do with the environment. But the public works, we 
have a Highway Bill coming up, a WRDA bill, Water Resources 
Development Act, which we want to get back on a 2-year cycle. 
And you are going to find that the Chairman and the Ranking 
Member will be inseparable in these issues. They will be 
working together, contrary to what you might see today.
    [Laughter.]
    Senator Inhofe. Now, thank you for holding the hearing 
today, Madam Chairman. As you know, no one likes to talk more 
about the global warming science than I do. However, with this 
being the first climate change hearing in the 111th Congress 
and in the midst of this deep financial crisis, the recession, 
I thought I would start by quoting Ronald Reagan: ``There you 
go again.'' In these turbulent financial times, rather than 
opening with climate hearings that analyze issues that 
Americans are concerned about, such as how cap and trade 
policies, which were mentioned last night by the President, how 
they are going to affect the bottom line.
    I don't need computer models to tell me that the people are 
hurting financially, that hundreds of thousands of Americans 
are losing their jobs every month, and I don't need a degree in 
science to tell me that the climate will continue to change and 
challenge us all. I see it every day. Rather as law makers, it 
is our duty here in this Committee to analyze the policy issues 
that affect all Americans, especially in the near term. And I 
am hopeful that this year we will schedule more hearings that 
address these types of issues.
    Now before I comment on the science and welcome our 
distinguished witnesses, I thought I would try to put some of 
these economic issues in perspective with the science. I will 
use numbers that the Americans are unfortunately getting used 
to. By this chart up here, all the bailouts that we have been 
subjected to, one of the problems I have, we are thinking now 
in terms of billions and trillions, which used to be in 
millions. If you look at the auto bailout, housing bailout, 
mortgage bailout, and then of course the big bank bailout, $700 
billion, the economic bailout that was just passed.
    Now, when you compare that to the climate bailout, this is 
something you have to look at. And the figures we are using 
here are not my figures, these were the figures of the authors 
of the bill, the last climate bill that we had, which was the 
Warner-Lieberman bill.
    Now, what they all have in common is that they represent 
previously unimaginable amounts of money that the Government is 
currently spending or eventually taxing to throw at our 
problems and try to boost our economy. In the cap and trade 
context, this comes in the form of taxes through passed on 
higher energy costs, in terms of effectiveness. We learned last 
week that at least with the auto bailout, the initial offering 
didn't really work, because now both GM and Chrysler are coming 
back for more.
    Now, where does this climate science come in? It comes in 
once again in terms of effectiveness, using our tax dollars 
wisely, assuming the IPCC's own targets for stabilization of 
CO<INF>2</INF> in the atmosphere at 450 parts per million, or 
even less realistic targets being argued by many.
    Then the science dictates and the EPA confirms that the 
U.S. only cap and trade policy is not going to be effective. 
Now, if you just stop for a minute and just try logic, if this 
were back talking about the Kyoto thing, assuming all countries 
are going to do the same thing, there could be an argument that 
to say, even if you believe that anthropogenic gases, 
CO<INF>2</INF>, in carbon, is causing global warming, then what 
good does it do for us unilaterally to try to do this as a 
Country? Because all that would happen is, and we have 
information from the National Association of Manufacturers and 
others that our manufacturing base would further erode and go 
to countries where there are no emission requirements. And I am 
talking about China and Mexico and some of these other 
countries.
    So they may argue that on a new global international policy 
where the U.S. should lead in order to reach such pie in the 
sky reduction levels, however, these efforts should be 
contrasted with the reports from just last month from the 
Chinese government that show China is aiming to increase its 
co-production by about 30 percent in 2015. So they have no 
intention of dropping it down. We have many other quotes that 
there is not time to talk about here.
    Now, regarding the science. I welcome all the witnesses 
here today including Dr. William Happer. I would say this, and 
I would have done the same, and tried to do the same thing when 
I was chairing this Committee, it is stacked three to one, so 
anyone who is evaluating, this is not representative of an even 
panel in terms of the positions. Dr. Happer is a professor at 
the Department of Physics at Princeton University and former 
Director of Energy Research in the Department of Energy from 
1990 to 1993. He is a fellow of the American Physical Society, 
the American Association for the Advancement of Science, and 
the National Academy of Sciences. I welcome him and all the 
others.
    As you know, I regularly serve as a disseminator of 
information on the latest science that is not being reported in 
the mainstream media. I have given 12 floor speeches on this 
document, if anyone wants to endure all 12 of them, you can get 
them on my site, Inhofe.senate.gov. And contrary to the media 
and the United Nations, what they have promoted, there is a 
growing body of scientific studies and scientists who are 
openly rebelling against these so-called consensus. Recently I 
released a new report on climate scientists, which documents 
many studies. The report included over 650 scientists who 
reject the assertions made by the United Nations. It features 
skeptical voices of over 650 prominent international 
scientists, including many, and it has been updated, I might 
add, there are now close to 800 on this list.
    So I would note that with over 650 dissenting scientists or 
more than 12 times the number of U.N. scientists, that is 52, 
who authored the IPCC's 2007 summary for policymakers. And I 
would say that it is not really the report, it is the summary 
for policymakers that the media, all these guys at this table 
over here, are looking at. And that is not from scientists, 
that is from policymakers and for politicians.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Thank you, Madam Chairman, for holding today's hearing. As 
you know, no one likes to talk more about climate science than 
I do. However with this being the first climate change hearing 
in the 111th Congress, and in the midst of a deep financial 
crisis and recession, I thought I'd start by quoting Ronald 
Reagan: ``There you go again.'' In these turbulent financial 
times, rather than opening with climate hearings analyzing the 
issues that concern Americans, such as how cap-and-trade 
policies and taxes will affect our energy prices and our bottom 
line, we are here today to focus once again on speculative 
computer model predictions of 50 to100 years away of a looming 
climate catastrophe, and the public health and ecological chaos 
that will result from man's supposed effect on his climate by 
the continuing use of fossil fuels.
    I don't need computer models to tell me that people are 
hurting financially, or that hundreds of thousands of Americans 
are losing their jobs every month, and I don't need a degree in 
science to tell me that the climate will continue to change and 
challenge us all. I see it every day. Rather, as lawmakers, it 
is our duty here in this Committee to analyze the policy issues 
that affect all Americans, especially in the near term, and I 
am hopeful that this year we will schedule more hearings that 
address these types of issues.
    Now, before I comment on the science and welcome our 
distinguished witnesses, I thought I would try and put some of 
these economic issues in perspective with the science. I will 
use numbers that Americans are unfortunately getting used to 
seeing with all of the debate on bailouts. As you can see, this 
chart represents the costs of the various government bailouts 
within the last year (Auto Bailout $17 Billion, Housing Bailout 
$200B, Mortgage Bailout $275B, Bank Bailout, $700B, Economy 
Bailout $787B). The bottom number represents the amount of 
money the sponsors of the Lieberman-Warner bill said would be 
generated under their cap-and-trade bill, which is included in 
the billions, to keep the numbers in perspective.
    What they all have in common is they represent previously 
unimaginable amounts of money that the government is currently 
spending or eventually taxing to throw at our problems to try 
to ``boost'' our economy. In the cap-and-trade context, this 
comes in the form of taxes through passed-on higher energy 
costs. In terms of effectiveness, we learned last week that at 
least with the auto bailout, the initial offering will be 
ineffective, with GM and Chrysler both asking for billions more 
and still leaving bankruptcy options open. Time will tell 
whether these other bailouts are also proven ineffective.
    Now where does climate science come in? It comes in once 
again in terms of effectiveness, using our tax dollars wisely. 
Assuming the United Nations Intergovernmental Panel on Climate 
Change's (IPCC's) own targets for stabilization of 
CO<INF>2</INF> in the atmosphere at 450 ppm (parts per 
million), the EPA has confirmed that a U.S. only cap-and-trade 
carbon policy will be ineffective. These targets are simply not 
achievable with the approach to climate change that has been 
the focus of the policy debate for years.
    Now my colleagues will argue that we must focus on a new 
global international policy the U.S. should lead in order to 
reach such pie-in-the-sky reduction levels. However, these 
efforts should be contrasted with last month's Chinese 
government reports that show China is aiming to increase its 
coal production by about 30 percent in 2015 to meet its energy 
needs. In addition, other developing countries state they will 
not agree to binding caps and that climate funding is an 
entitlement, not aid, to be paid for by who else but us? It is 
time for us to get realistic about these policies, and focus on 
what is achievable, both globally and domestically, to help 
bring down energy costs to consumers and make us more energy 
secure.
    Now, regarding the science, I welcome all of our witnesses 
here today, including Dr. William Happer. Dr. Happer is a 
professor at the Department of Physics at Princeton University 
and former Director of Energy Research at the Department of 
Energy from 1990 to 1993. He is a fellow of the American 
Physical Society, the American Association for the Advancement 
of Science, and the National Academy of Sciences. I welcome his 
and all of the witnesses' testimony.
    As you know, I regularly serve as a disseminator of 
information on the latest science that is not being reported in 
the mainstream media. I have given over 12 floor speeches 
documenting the politicization of the global warming science 
issue. My continuing fear is that objective, transparent, and 
verifiable science gets lost in the public dialog.
    Contrary to what the media and the U.N. have promoted, 
there is a growing body of scientific studies and scientists 
who are openly rebelling against the so-called ``consensus.''
    Recently, I released a new minority report on climate 
science which documents many of the studies. That report 
included over 650 scientists who have challenged man-made 
global warming claims made by the IPCC and former Vice 
President Al Gore.
    It features the skeptical voices of over 650 prominent 
international scientists, including many current and former 
U.N. IPCC scientists. This updated report includes an 
additional 250 scientists and climate researchers since the 
initial release in December 2007. I would note the over 650 
dissenting scientists are more than 12 times the number of U.N. 
scientists (52) who authored the IPCC 2007 Summary for 
Policymakers.
    I would like to insert this report in the record and I look 
forward to referencing it in questions for the witnesses.

    [The referenced material was not received at time of 
print.]
    Senator Boxer. Thank you.
    Senator, since I only took 5 minutes of my 6, I will answer 
something you said. The first briefing we held in this 
Committee was on January 7th, and it was called Investing in 
Green Technology as a Strategy for Economic Recovery. So I know 
you and I disagree on the point, but believe me, this Committee 
is geared toward green jobs. We, as a matter of fact, have a 
new subcommittee, that is going to be chaired by Bernie 
Sanders, and I appreciate your approving of this, that is going 
to be dealing with the creation of green jobs. Because we are 
going to focus not only on the public works side with jobs, 
jobs, jobs, but also on the Environment side.
    And I also would point out on your chart that a cap and 
trade system isn't a bailout, it is revenues coming into the 
Government because we are going to have a private cap, we are 
going to have a system that sets a price on carbon and does it 
in the marketplace, just like the stock market. So it is going 
to be done out there.
    So rather than a bailout, it is a bail-in. We are going to 
have help here, we are going to receive these large amounts of 
money from a cap and trade system, and I am very excited about 
that possibility.
    Senator Inhofe. And I would concede to your first comments, 
but I would only say in terms of bailouts, this is the amount 
of money that people, not the people in this, well, including 
the people in this room, many of whom don't really care that 
much, but the people out in the real world who are going to 
have to pay for higher energy costs, they are going to have to 
pay for all this fun that we are having up here.
    So I just think we owe it to them, and I applaud you for 
having this science hearing, and I think that we need to let 
them know that the science is not settled. And all these recent 
things that we were talking about have come up, many of whom 
were the IPCC individuals that actually started out with the 
United Nations on this thing, they have come over to the other 
side. And I named names when we had the hearing with Vice 
President Gore, and I notice he is a little bit concerned about 
the fact that people like Claude Allegre from France and people 
like Nir Shaviv from Israel and David Bellamy from the U.K., 
these are people who were on the other side of this issue who 
are now over on the skeptic side, and they are all scientists.
    Thank you, Madam Chair.
    Senator Boxer. I allowed you to interrupt me, and now I 
will finish what I was going to say, which is that a lot of us 
believe that when we attack the problem of global warming, 
which we believe science tells us we must attack, and I would 
say probably more than 90 percent of the scientists, probably 
more than that, agree that we must, and agree on the science.
    There are always outliers, that is fine, and they have 
their rights. But we think it will be a boon to our economy.
    And the last thing I will say before I turn it over to 
Senator Lautenberg for his time, is that to say that the people 
in this room don't care about jobs, that is ludicrous. Eighty 
percent of the American people consider themselves 
environmentalists. That is, we have polled people, 80 percent. 
Of course they care about jobs. And to set the Environment 
against jobs is ludicrous, because when you look back in the 
history, since we started passing Clean Air, Safe Drinking 
Water and all that, many of which were started under Republican 
Presidents, jobs go along with it.
    So I hope we don't say that people who care about the 
Environment don't care about jobs. We all work for a living.
    Senator Inhofe. I don't think I said that, Madam Chair.
    Senator Boxer. Well, you said people in this room don't 
care.
    Senator Inhofe. I said that we have activists who are more 
concerned about causes than that.
    Senator Boxer. Yes. You can see that this is a little bit 
of a touchy subject between us. But we love each other.
    [Laughter.]
    Senator Boxer. Senator Lautenberg.

          OPENING STATEMENT OF HON. FRANK LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you, Madam Chairman, and thank 
you for calling these distinguished witnesses to this hearing.
    I welcome our distinguished professor from Princeton, the 
State of New Jersey. We might even have a difference of view, 
but that doesn't mean that we are not proud of New Jersey and 
Princeton, and their long, distinguished academic record.
    Madam Chairman, it kind of befuddles the mind a little bit 
when we review, have these traditional reviews of what was said 
and how dismissive views are about those who are in attendance 
here. It is hard to understand that, and I am sorry that our 
friend, Senator Inhofe, has left, because I don't want to 
disparage him when he is not here.
    [Laughter.]
    Senator Lautenberg. And Madam Chairman, thank you for 
having the hearing. In 2007, the Intergovernmental Panel on 
Climate Change said the world is warming and humans are 
responsible. This science is sound, their conclusions hard to 
ignore. The head of the IPCC, we are pleased to have Dr. 
Pachauri here. Welcome, all of you. And we look forward to your 
analysis, Dr. Pachauri, of the situation.
    There are new reports that Antarctica is getting warmer. I 
had the opportunity to go there, go to the South Pole just a 
few years ago. And I was dismayed to see places that became 
kind of familiar to me in a very short period of time that had 
been standing there for thousands of years, and suddenly now 
the breakoffs are State-size and floating in the ocean as long 
as they last.
    Members of this Committee were in Greenland. We went there, 
and I don't know what visual observations mean, but the fact of 
the matter is that the disappearance of ice was obvious. The 
ground that was left behind had turned black. And the rise in 
sea levels, in my view, cannot be further ignored. In fact, the 
amount of sea ice in the Arctic is nearly 40 percent below 
normal, according to a recent report.
    A warming world means rising sea levels, and rising sea 
levels have global implications. Anyone with a coastline has to 
worry about that and plan for these changes. The EPA itself 
found States with coastlines such as our State, New Jersey, 
California and other States represented on this Committee will 
directly face these risks in coming years. With increased 
greenhouse gases and higher temperatures, we also risk more 
severe and unstable weather, less productive fisheries from an 
increasingly acidic ocean and extinction of entire species of 
animals.
    And how about the degradation of health? What is the cost 
of that? Increases in respiratory diseases, those things, when 
we look at our chart, we see comparisons that are really 
irrelevant in terms of what we are talking about here. Because 
yes, we have to spend money on other things. We have to dig 
ourselves out of a deep economic hole. But we also have a 
responsibility to our families and succeeding generations to do 
something about this instead of scornfully reviewing what has 
taken place.
    I don't know whether of you believe that one of the worst 
hoaxes, hoaxes, a joke perpetrated on the people of this 
Country is the discussion of the view of global warming. It is 
outrageous to be so casual about something and make comparisons 
that don't do our families any good. With increased gases and 
higher temperatures, we also risk, and we risk more severe 
unstable weather, less productive fisheries from an 
increasingly, as I said, I am repeating myself here, it gets 
me. All of us want to protect our planet and our way of life 
for our children and grandchildren and generations to follow. 
And every day we ignore the science and choose to do nothing, 
global warming gets worse and we need to make up for lost time.
    Last year, scientists were talking about the need for 
America to reduce greenhouse emissions by 80 percent by 2050. 
Now, many scientists believe that we need to cut emissions by 
90 percent. We need to be bold, and this Committee has to lead 
the way. And together, we will fight global warming and our 
dependence on foreign energy sources, improve our air quality, 
create millions of new high-paying jobs.
    Madam Chairman, I look forward to working with you to craft 
a bill rooted in science to tackle the climate changes we face. 
Thank you very much.
    Senator Boxer. Thank you so much, Senator Lautenberg.
    Senator Bond.

      OPENING STATEMENT OF HON. CHRISTOPHER ``KIT'' BOND, 
            U.S. SENATOR FROM THE STATE OF MISSOURI

    Senator Bond. Thank you very much, Madam Chair, for hosting 
this hearing. I am concerned about the failure of climate 
modelers to predict accurately the global cooling we have seen 
the last 10 years. These models don't explain why we saw 
temperatures far warmer than today than 100 years ago, 1,000 
years ago, when the Vikings were farming Greenland, and 2,000 
years ago, when the Romans grew grapes in Britain. So there is 
much to be learned about the science of climate.
    But I want to focus on economics and what the science says 
about the futility of proposed U.S. Government actions. The 
first chart is from the International Energy Agency in Paris. 
The left hand bar shows where carbon emissions are headed in 
2030, business as usual. The red portion of the bar shows 
carbon emissions from developing countries in OECD, basically 
western countries, Japan and Australia. The blue portion of the 
bar is emissions from everyone else.
    The green bar is where some want to be. That is worldwide 
carbon concentrations in the atmosphere of 450 parts per 
million is what some scientists tell us is needed to avoid 
serious climate harm from humans.
    What this chart shows us is that if we cut 100 percent of 
the carbon emissions from the western developed world, tracked 
by the dashed red line, we would still not do enough to reach 
carbon concentrations some say are necessary. That means 
western developed countries could park every car, bus and 
truck, turn off almost every television, light, computer, air 
conditioner and many heaters, idle almost every factory and it 
still would not be enough. This is not a prediction, this is a 
scientific fact just by doing the math of carbon emissions and 
concentrations.
    Now, the second chart, done with data from the U.S. 
Environmental Protection Agency, shows how science tells us 
that if the U.S. passes carbon legislation without developed 
countries like India and China taking similar actions, carbon 
levels will still rise dramatically. Near the red arrow 
pointing up, the thin red line is business as usual. The nearby 
line headed up is U.S. acting alone. Basically, no change.
    The only way we halt the rapid rise in carbon 
concentrations is if the U.S. is joined by India and China 
cutting carbon emissions, the green arrow and dashed line. This 
is important, because our guests here from India and the United 
Nations have said developing countries like India will be 
exempted from any such restrictions in a new Kyoto Treaty. Our 
friends from China have made similar comments, when they will 
not accept carbon cut quotas from a new Kyoto Treaty.
    For those who say we should be leaders and impose this pain 
on ourselves, what is the purpose of that, if science shows 
that countries needed to make a difference refuse to follow? We 
must then as why, during a worldwide economic crisis, should we 
take futile actions that science says will do nothing to solve 
the problem. Speaker Pelosi of the House has suggested that 
this will be a good way to raise governmental revenues.
    OMB Director Peter Orszag said this week that the Obama 
budget is already counting on Government proceeds from a coming 
cap and auction bill. That says tax to me. That is not a 
market. Some have suggested this would be a climate bailout, 
like our previous bank and housing bailouts that have worked so 
successfully. With the Pelosi and Orszag comments, it seems 
clear that what they really want to bail out is the Federal 
Government with its runaway spending and the tremendous amounts 
of money that would be spent hiring people to do these things.
    But how much is a hidden energy tax going to kill American 
jobs, burden U.S. families and devastate retirees, especially 
in coal-dependent regions? That is to be determined. I happen 
to live in one of those regions, and I am very much concerned 
that we would devastate the Midwest. Calling this proposed 
system of governmental costs on companies who provide jobs, who 
produce energy, support energy-related jobs, a ``market-based 
solution,'' which clobbers people dependent on fossil fuels is 
a remarkable obfuscation. Let's call it what it is. It is going 
to be a huge unfair tax.
    The science shows us that the United States acting while 
China and India refuse to act will be futile. I will certainly 
oppose raising energy costs on suffering families and workers 
during an economic crisis when the science says our actions 
will be futile. I hope my colleagues will, too.
    And I thank you, Madam Chair, for giving me this 
opportunity.
    [The prepared statement of Senator Bond follows:]

              Statement of Hon. Christopher ``Kit'' Bond, 
                U.S. Senator from the State of Missouri

    Thank you, Madam Chairman, for hosting this hearing on the 
current state of climate science. I am concerned by the failure 
of climate modelers to predict accurately the global cooling we 
have seen the last 10 years. These models also do not explain 
why we saw temperatures far warmer then today 1,000 years ago 
when the Vikings were farming Greenland and 2,000 years ago 
when the Romans grew grapes in Britain. So, I believe there is 
much to learn about the science of climate.
    But today I want to focus on what science says about the 
futility of proposed government actions. This chart is from the 
International Energy Agency in Paris. The left hand bar shows 
where carbon emissions are headed in 2030 with business as 
usual. The red portion of the bar shows carbon emissions from 
developed countries in the Organization for Economic 
Cooperation and Development, basically western countries and 
Japan and Australia. The blue portion of the bar is emission 
from everyone else. The green bar is where some want to be--
that is worldwide carbon concentrations in the atmosphere of 
450 parts per million. This is what some scientists tell us is 
needed to avoid serious climate harm.
    What this chart shows us is that if we cut 100 percent of 
the carbon emissions from the western, developed world, tracked 
by the dashed red line, we would still not do enough to reach 
carbon concentrations some say are necessary to avert dangerous 
climate change. That means western, developed countries could 
park every car, bus and truck, turn off almost every 
television, light, computer, air conditioner and many heaters, 
idle almost every factory, and it still would not be enough. 
That is not a prediction, that is a scientific fact just by 
doing the math of carbon emissions and concentrations.
    This second chart, done with data from the U.S. 
Environmental Protection Agency, shows how science tells us 
that if the U.S. passes carbon legislation without developed 
countries like India and China taking similar actions, that 
carbon levels will still rise dramatically. Near the red arrow 
pointing up, the thin red line is business as usual. The nearby 
line headed up, is the U.S. acting alone--basically no change. 
The only way we halt the rapid rise of carbon concentrations is 
if the U.S. is joined by India and China cutting carbon 
emissions--the green arrow and dashed lines.
    This is important because our guest here from India and the 
United Nations has said ``developing countries [like India] 
will be exempted from any such restrictions'' in a new Kyoto 
treaty. Our friends from China have made similar comments that 
they will not accept carbon cut quotas from a new Kyoto treaty.
    For those who say we should be leaders and impose this pain 
on ourselves, what is the purpose of that if science shows that 
countries needed to make a difference refuse to follow?
    We must then ask why, during a worldwide economic crisis, 
should we take futile actions that science says will do nothing 
to solve the problem?
    Speaker Pelosi of the House has suggested that this will be 
a good way to raise Federal Government revenues. OMB Director 
Orszag said this week that the Obama budget is already counting 
on Government proceeds from a coming cap and auction bill.
    Some have suggested that this would be a climate bailout, 
like our previous bank and housing bailouts. With the Pelosi 
and Orszag comments, it seems clear that what they really want 
to bail out is the Federal Government and runaway spending.
    The science shows us that the United States acting while 
China and India refuses to act will be futile. I certainly will 
oppose raising energy costs on suffering families and workers, 
especially during an economic crisis, when the science says our 
actions will be futile.
    I hope my colleagues will, too. Thank you.

    [The referenced material follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Boxer. Well, thank you, Senator Bond, for taking 
the opportunity to reiterate the message you have had for us 
for quite a while. I would say you do it very well.
    But I would just point out that these countries that you 
point to, India and China, very key that they do attack this, 
they do like to come into our Country with their goods, and we 
do have leverage under the WTO. And I think that was part of 
our last approach. I am thankful to you for raising this issue 
because I think it has to be key to our next legislation as 
well.
    And now it is my pleasure to call on Senator Klobuchar.

           OPENING STATEMENT OF HON. AMY KLOBUCHAR, 
            U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Thank you very much, Chairman Boxer, and 
thank you again for making this such a prominent issue and 
having a review of the science, which I think we need to have.
    I also, Senator Bond, live in a cold place, and I bet it is 
even colder than yours. But I will say that the citizens in my 
State, while we are concerned in these economic times to make 
sure that we come up with a solution to this that isn't going 
to bring them down, I think they see the possibility of 
opportunity here. Maybe it is because we have been a leader in 
renewable energy, that we are fourth in the Country with wind, 
that we have an aggressive renewable standard. But they see, I 
would say, the glass not just half empty, but half full, and 
see the possibilities.
    We have always been in a leader in our State in science. We 
are the home of the Mayo Clinic, we have given the world 
everything from the pacemaker to the Post-It note, and we see 
this as our next opportunity. I am also a former prosecutor, so 
I believe in evidence. That is why I think it is important that 
we base our hearing today not just on everyone's rhetoric, but 
on the information that you are going to present us with.
    Senator Lautenberg mentioned we had a trip to Greenland in 
2007. And while I am no scientist, I was able to see first-hand 
from the people that live there what was going on. We learned 
that Greenlanders were planting potatoes in places that only a 
few years ago were covered year-round with ice. We learned that 
Greenland has lost a large portion of their ice sheet.
    But what surprised me most was something I saw during the 
trip in the middle of the ice sheet. We landed on this island 
that was easily the size of a house, and our pilot explained to 
us that the island had only appeared in the last 5 years when 
the ice had melted. As one of the scientists who accompanied us 
on this trip explained to us, Greenland is really the canary in 
the coal mine when it comes to climate change.
    As we all know, the Intergovernmental Panel on Climate 
Change concluded in November 2007 that global warming is 
happening, that most of the observed increase in temperature is 
very likely to due to greenhouse gases. The report predicted an 
increase in wildfires and public health problems, like heat 
stroke, asthma and even chronic disease. And what is 
particularly troubling is that actual warming trends are out-
pacing the forecasts of the IPCC.
    A story in last Sunday's Washington Post I thought was 
quite concerning. The article reported on the annual meeting in 
Chicago of the American Association for the Advancement of 
Science. One of the scientists said, ``We are basically looking 
now at a future climate that is beyond anything we have 
considered seriously in climate model simulations.'' I would 
like to hear about your thoughts on that.
    He went on to note that greenhouse gases are being emitted 
at higher rates than previously anticipated and that this is 
causing an unexpectedly high release of carbon from the Arctic 
permafrost.
    Madam Chairman, the oceans are warming, causing wind speeds 
to increase, which in turn makes the oceans more acidic. But as 
I have always said, to get the support for this across the 
Country, we have to talk about more than oceans. We have to 
talk about the fact that in the Great Lakes, Lake Superior, we 
have seen declining levels because of the ice melting sooner, 
which has affected our barge traffic. We have seen ice fish 
houses that can't get out until much later than they usually 
do, because the ice isn't freezing. We have seen an increase in 
storms and floods our State.
    Glaciers around the world are melting. We saw this in 
Greenland, we are seeing it in the Himalayas. I thought it was 
interesting to learn about how the Chinese traditionally plant 
two crops a year. You think the huge country of China, and when 
the Himalayan glaciers disappear, where they get their water, 
the chances are that water levels on the main Chinese river 
that supply Chinese agriculture will also dry up.
    But this is about the lakes in Minnesota. But it is also as 
far-reaching as agriculture in China. That is why this topic is 
so important. We need the best possible information about the 
science of climate change, so that we can anticipate what is 
coming. We need accurate information in order to draft this 
legislation, to make this legislation fair to the people of 
this Country, but to actually do something and get this done.
    During his speech to the Country last night, President 
Obama talked about this issue and the challenge. He included a 
call to action, he included a call to action to this Congress 
to actually get cap and trade legislation passed. He sent a 
clear and powerful message to everyone in this Country and the 
rest of the world that addressing climate change is a priority.
    I see this, unlike my colleague on the other side, from 
another M State in the Midwest, I see this as an opportunity. 
We have a scientific community that we are going to hear from 
today that is giving us sound information and we have a 
Congress that for the first time stands ready to turn that 
scientific information into action.
    Thank you very much, Madam Chair, and thank you to our 
panelists.
    Senator Boxer. Thank you, Senator Klobuchar.
    Senator Specter.

           OPENING STATEMENT OF HON. ARLEN SPECTER, 
          U.S. SENATOR FROM THE STATE OF PENNSYLVANIA

    Senator Specter. Thank you, Madam Chairwoman.
    I am delighted to be a member of this very important 
Committee, Environment and Public Works. I had served on it 
many years ago, but other committee assignments precluded my 
being on it and now I am glad to be here, especially because 
the global warming issue is going to be a central issue.
    I thank you, Madam Chairwoman, for scheduling this hearing 
on the most up to date scientific evidence. Because that sets 
the stage for what we are going to do. I think the evolution of 
the views of President Bush on the threat of global warming are 
highly significant. For a considerable period of time, 
President Bush was a doubter. And in the later stages of his 
Administration, he came to agree that global warming was a 
critical issue.
    There are still some who raise questions, and it is a 
legitimate inquiry. Some of the scientific evidence provides 
the underpinning for what we need to do.
    Two years ago, Senator Bingaman and I introduced 
legislation on global warming and it differed from the 
parameters of the legislation introduced by Senator Warner and 
Senator Lieberman, which had more exacting standards. But the 
Warner-Lieberman standards could not be achieved within 
existing technology, at least that is what my studies showed. 
The contention was raised that if we had more exacting 
standards that technology would advance to meet them. Well, 
that is speculative. And my own view is that we ought to have 
very, very meaningful standards, but they ought to be within 
reach on existing technology. If our technology is improved at 
a later time, there will be ample opportunity to revise the 
standards, if we deem that necessary and attainable.
    I think it is very important to structure legislation which 
can receive popular support, public support. My State, 
Pennsylvania, is a big coal-producing State, 30 billion tons of 
bituminous in western Pennsylvania and 7 billion tons of 
anthracite in northeastern Pennsylvania, very, very important 
for our economy. And while I applaud what we are doing with $80 
billion in the stimulus package for energy that is renewable, 
wind power, solar power, hydropower, until we get there, we are 
dependent on, too much so, on OPEC oil. And with clean coal 
technology, we still have an opportunity to use these resources 
with due regard for the environment and environmental 
protection, which my record shows is a high point of 
consideration on my part.
    The Bingaman-Specter bill has gotten significant support 
from not only the power companies, and many have joined in 
urging its adoption, but also from the United Mine Workers. 
Also a labor organization very concerned about jobs, obviously, 
which is what they should be. But acknowledging that 
significant steps have to be taken, so that when we take a look 
at the overall picture, I think we have to bear that in mind.
    But this is a very important subject, highlighted again by 
the President last night. I look forward to working with you, 
Madam Chairwoman, and the others on this Committee to try to 
structure legislation which can be enacted this year. Thank 
you.
    Senator Boxer. Senator, thank you very much. And thank you 
for the contribution you made to this debate, working with 
Senator Bingaman. It was very important, and it continues to 
be. Thank you.
    Senator Merkley.

            OPENING STATEMENT OF HON. JEFF MERKLEY, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Merkley. Thank you very much, Madam Chair, for 
bringing this panel of esteemed scientists together.
    Every citizen in my State is certainly impacted by issues 
regarding climate change, from our farmers, for whom a small 
change in precipitation certainly can change a dry land wheat 
crop into a desert, to our folks in the timber industry who 
have concerns about insect infestations and forest fires, to 
our folks in our river economy and our coastal economy, 
dramatically affected by the temperature of the water, the 
water flows, the course of currents and so on and so forth.
    So after a time period in which science has not always been 
at the center of the conversation, I am delighted that we are 
turning to you all for your best insights. Certainly one point 
I would love for you all to address if possible in your 
testimony is, if we do nothing as an international community, 
and I do take the point of Senator Bond that the international 
community needs to work together to tackle these issues, if we 
do nothing and the increase in carbon dioxide and methane gas 
continues apace over the next 50 years, what is your best 
estimate of how much the temperature of the planet will 
increase over a 50-year period, and what is the impact on 
ecosystems and human civilization?
    I associate myself with other comments that have been made 
here, and look forward to your testimony.
    Thank you very much, Madam Chair.
    Senator Boxer. Thank you, Senator.
    Senator Sanders.

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Sanders. Thank you, Madam Chair, and thank you for 
your leadership on this issue, not only of great significance 
to our Country, but the entire world. For many years now, at 
least for the last 8 years, the rest of this planet has been 
wondering what the United States of America is doing. I think 
at this particular moment in history, we are going to rise to 
the occasion.
    As Senator Merkley just mentioned, I think one of the 
issues that we have to address is not just the cost of 
addressing the crisis of global warming, it is what is the 
cost, both monetarily, financially, as well as health-wise, of 
not addressing the issue. I think the evidence seems to suggest 
that if we do not act aggressively in cutting back on 
greenhouse gas emissions and reversing global warming, what we 
are going to look at are trillions of dollars of loss in the 
international economy over a period of years, we are going to 
look at a great amount of loss in terms of extreme weather 
conditions, flooding, of drought, of hunger, of political 
instability.
    In fact, I think the CIA is now worried about mass 
migrations as people have to move around and are engaged in 
struggle for limited natural resources, for food. We are going 
to look at increased disease. What is the cost of all of that 
if we do not act?
    Second of all, in terms of economics, Senator Boxer and I 
just came from a meeting earlier this morning talking to people 
from all over the Country who are seeing the potential for the 
creation of millions, millions of good-paying jobs over the 
years as we move away from fossil fuels, as we address the 
economic crisis this Country faces from the importation of some 
$700 billion a year of foreign oil. Think of the jobs that we 
could create as we move to wind, as we move to solar, as we 
move to geothermal, as we move to biomass. Huge jobs creation 
in all of that area.
    Clearly, I think as some of our friends on the other side 
have indicated, this is not just an American crisis, this is an 
international crisis. But we have no credibility with the rest 
of the world if we are not moving forward aggressively. And in 
fact, what we have just heard this morning, as you talk about 
China, China is moving forward aggressively in terms of energy 
efficiency, in terms of solar. Do you think they are dummies 
there? I don't think so. They know that their lakes and their 
rivers are heavily polluted. When I was in China, people were 
wearing these masks around their face because the air is so 
polluted. They are not dumb.
    And if we can in fact take a leadership position once again 
in terms of sustainable energy, we can create significant 
numbers of jobs in this Country helping China, helping India 
with that technology. In fact, we should be a little bit 
embarrassed that some of the technologies that we created in 
this Country are now being aggressively used around the rest of 
the world, and we are importing products from them. This is the 
United States of America. We should be doing quite the 
opposite.
    So Madam Chair, thank you, A, for recognizing the huge 
importance of this issue for people all over the planet, and 
second of all, for understanding what President Obama has made 
clear for many years now, that of course this is a crisis, but 
it is also an opportunity to make radical changes in energy in 
America and create millions of good-paying jobs.
    Thank you, Madam Chair.
    Senator Boxer. Thank you, Senator.
    Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman. I 
welcome the panel.
    It is fascinating, as we attempt to address this issue, 
that the Pew Research Center did a poll to show where different 
topics fit into the interest of the American people. And right 
now, at a ranking of 20 different items of importance to the 
American people, the issue of addressing climate change ranked 
20th, dead last. The American public is dealing with the 
reality of an economic meltdown, that is a real and an 
immediate problem.
    So with trillions of taxpayer dollars being directed to 
stimulate, ``stimulate'' the economy, each next step Congress 
takes to spend additional funds on anything is going to be 
watched closely by the American public. We have just passed 
numerous bailout bills. Senator Inhofe has gone through a chart 
of the different bailouts that we have been dealing with, 
passed numerous bailout bills over the last 6 months. Now, a 
new $787 billion economic bailout intended to create millions 
of jobs.
    We heard in hearings last year that climate change 
legislation is needed to avert a 4 degree global temperature 
increase by the year 2050. This will occur only if India and 
China fall in line and take similar action. Well, China and 
India are emitting more carbon than the United States. It is 
essential that they participate in any international effort.
    If these countries do enact strict and expensive 
regulations, we will then avert the 4 degree and instead incur 
only a 2 degree increase by the year 2050. And that only comes 
true if the science holds.
    But science doesn't stop for policymakers. It continually 
adds to itself, building upon our knowledge base. That is why I 
am glad to see these experts here today. Because even now, as 
many scientists tell us that the earth is warming, the science 
changes as to the cause of warming. New reports, in a study 
that I have recently looked at, says that sulfur dioxide 
emissions from volcanic eruptions may be playing even a larger 
part in climate change than previously thought, maybe even more 
important than carbon dioxide. A recent study was released 
suggesting that analysis of leaves in peat and lake deposits, 
as opposed to examining the Arctic ice cores, may be a better 
measurement of the role carbon has played in our climate in the 
pre-industrial era.
    Additional studies have been released suggesting the pace 
of warming has increased, dramatically increased. The Chairman 
of the Committee has shown headlines to that effect. I don't 
think we can ignore any of these studies. If we can't ignore 
these studies, then we must consider that a cap and trade bill 
heavily tilted toward capturing carbon at a cost of trillions 
to the economy could be an outdated solution to the problem.
    We have to get this right. So I would say, let's get 
America's energy as clean as we can, as fast as we can, without 
raising energy prices on the people of America. That means 
increasing clean baseload 24 hour, 7 day a week power and 
making that available as soon as we can. That means clean coal 
technology, nuclear power, and natural gas.
    Let's invest in the technology to retrofit existing power 
plants and yes, let's augment that with an intermittent 
renewable power supply. And we have plenty of available 
renewable power in Wyoming. All of these sources of energy are 
clean, low to zero carbon emitting and can be developed right 
here in America. But spending trillions of dollars, trillions 
of dollars, to address climate change through an untested cap 
and trade approach, an expensive proposal, is an unnecessarily 
risky approach. To me, it is a trillion dollar climate bailout. 
I would say, let's adopt a climate change policy that makes 
America's energy clean, affordable and domestic.
    Thank you very much, Madam Chair.
    Senator Boxer. Thanks, Senator.
    I just wanted to point out, we have had a cap and trade 
system to fight acid rain. It has been tested and it has 
worked.
    And I want to point out that we are going to hear from 
Senators Cardin, Crapo if he is back, and Whitehouse. But at 
that point, we are going to close off the opening statements 
and hear from our panel.
    Senator Cardin.

          OPENING STATEMENT OF HON. BENJAMIN CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Thank you, Madam Chair. And let me thank 
you for this hearing. It is not the first that we have, and I 
am sure it is not going to be the last to make sure that we 
have the best scientific information as we move forward to deal 
with one of the major problems that we face, not only as a 
Nation, but as a member of the international community.
    The scientific information on global climate change has 
been remarkably consistent. There has really been no major 
change in the predictions that we have a serious problem. Now, 
for the people of Maryland, let me talk a little bit about the 
Chesapeake Bay. The Chesapeake Bay is experiencing radical 
changes. And it is related to global climate change. Sea level 
changes, we have seen a lowering of the dissolved oxygen 
levels, more precipitation, changes in various species and 
migration patterns, which is jeopardizing not only the economy 
but the character of my State of Maryland.
    So the people of Maryland are concerned about what is 
happening. And they have a right to expect that this Congress 
will take up the challenge associated with global climate 
change.
    But the good news is that we all know we have to do 
something about energy from the point of view of our security. 
And using less carbon-based energy sources will be good for our 
economic security. We know that. So this really becomes a win-
win situation for our Nation.
    So I was proud that President Obama, Madam Chair, last 
night mentioned that one of his priorities in dealing with our 
economy is to deal with a carbon cap. Now, I heard Senator Bond 
and Senator Barrasso talk about the economic impacts of dealing 
with global climate change. To me, this is a win-win situation. 
If you reward private companies that can come up with ways to 
produce energy with emitting less carbon, that is a win. And 
that is what a carbon cap does. It energizes the private 
companies to use their ingenuity here in America to lead in 
technology that will help us not only with a cleaner 
environment, but with energy security, and will also help our 
economy by creating more jobs.
    And yes, there is a penalty under a carbon cap. If you 
pollute, you are going to have to pay for the damage you are 
causing to our economy. To me, that is America. That is what 
our economy market-based system is based upon that you can make 
money and help our Country. And that is what the carbon cap is 
about.
    So I heard also the concern about what other countries are 
doing, and I have heard my colleague talk about it. Well, as 
President Obama said last night, this is America, we lead. And 
it is time that we led on this critically important issue.
    Now, I congratulate the Chairman, last year for the bill 
you brought forward, because you recognized the impact that we 
need to have other countries follow our leadership. And if they 
produce products that are bad for the environment, with 
emitting too much greenhouse gases, then there is a price to 
pay if those products come into America. And I have talked to 
my friends, parliamentarians from other countries. And we need 
to work within the WTO, the World Trade Organization, so that 
we have consistent international roles to recognize that all of 
us are citizens of this planet and have a responsibility to 
reduce carbon emissions.
    But if the United States does not lead, it won't get done. 
That is the responsibility that we hold. And with President 
Obama's leadership as the President of our United States, we 
have a unique opportunity, and the world is watching. And I 
congratulate you, Madam Chair, for holding this hearing, so 
that our decisions will be based upon the best scientific 
information.
    [The prepared statement of Senator Cardin follows:]

                  Statement of Hon. Benjamin Cardin, 
                U.S. Senator from the State of Maryland

    Madam Chairman, thank you.
    Over the last 2 years we have heard testimony from a number 
of individuals. A little over a year ago, for example, we heard 
from Dr. Pachauri, and we are grateful that he has come back to 
provide us with a further update on the science of global 
warming.
    I want to thank Chairman Boxer for her work in keeping the 
focus on sound science as this debate continues.
    While the list of witnesses has included the occasional 
obligatory nay-sayer, we have seen a steady stream of 
scientists who have provided a remarkably consistent set of 
facts regarding:
      the state of the global climate system,
      projections on how the climate system is changing, and
      the likely impacts these changes will have on health and 
human welfare, agriculture, transportation systems, and 
important ecosystems like the Chesapeake Bay.
    Much of the testimony has been informed by the latest, 
peer-reviewed science and represents a consensus of the 
scientific community on the nature of the climate system's 
warming, the causes for that warming, and the degree to which 
this warming will continue.
    Climate change will likely have an impact on our Nation's 
treasure, the Chesapeake Bay. Possible impacts for the 
Chesapeake include increased sea-levels, lower dissolved oxygen 
levels, more precipitation, and changes in various species' 
abundance and migration patterns. Many species will deal with 
the interaction of several climate change effects, which could 
impact their ability to survive in the Bay region.
    It is not only wildlife that are threatened by climate 
change--the EPA has found that increasing greenhouse gas 
concentrations poses a threat to human health due to a number 
of factors including more deaths attributed to heat and the 
increase in vector-borne diseases. In Baltimore, the EPA 
projects that a three degree Fahrenheit overall air temperature 
increase in air temperature could increase the heat-related 
death toll by 50 percent from 85 to 130 people annually.
    The research upon which these findings are based is rooted 
in an extensive, careful analysis of past and present 
observations of the atmosphere and ocean coupled with advanced 
numerical predictive models.
    The science record is remarkable in another key aspect. 
Time is not on our side. The scientific community consistently 
warns us that the longer we wait to take aggressive action to 
curb greenhouse gas emissions, the steeper the climb will be to 
meet our targets.
    Thankfully, today we have not simply a strong scientific 
consensus on the issue. We also have an increasing body of 
evidence that our efforts to address climate change will result 
in a number of net positives for America and the world.
      Our national security is enhanced as we reduce our 
reliance on foreign sources of oil.
      Our economy will be recharged as we move to a 
sustainable energy system and the thousands of green jobs it 
will produce in solar, wind and bio-energy development and 
energy efficiency projects.
      And lowering greenhouse gas pollution will almost 
certainly also result in a lowering of other air pollutants, 
meaning our citizens will be breathing cleaner air.
    Thankfully, today we have both an Administration in the 
White House as well as the congressional leadership we will 
need to tackle this extraordinary challenge.
    I look forward to hearing from today's witnesses and 
learning more about the latest climate science research.
    And I look forward to using this hearing as a strong 
springboard for us as we confront one of the greatest 
challenges of our age. With your strong leadership, I look 
forward to drafting and passing a climate change bill this 
year. Let's get started.
    Thank you, Madam Chairman.

    Senator Boxer. Senator, thank you very much.
    I see Senator Crapo isn't here. We will go to Senator 
Whitehouse. If Senator Crapo comes back, we will go to him and 
then Senator Udall, and then we will move forward.
    Senator Whitehouse.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Madam Chair,
    I am always reminded when we go through this exercise of 
debate with our colleagues and friends over whether climate 
change is really happening of the hearing that you held with 
the head of the health departments of all the States, came here 
and gave such a strong, unanimous statement. I asked her, where 
was the minority report; she said there wasn't one. The health 
directors of Missouri, of Wyoming, of Idaho, of Oklahoma, were 
all on board. And I asked, what is the difference, why is there 
disagreement here? And in a very quiet voice she said, well, we 
did take an oath to protect the health and safety of our 
people.
    This seems to be the last redoubt where the merchants of 
doubt can still work their obstructive mischief. And it is 
unfortunate, I think. You can always find someone who disagrees 
with any proposition, you can find scientists who disagree with 
scientific propositions. You can find lawyers who disagree with 
legal propositions.
    But responsible humans act on far less information than 
this. And even flinty-eyed, rough, tough, profit, bottom-line 
driven Republican-leaning insurance companies are modifying 
their decisions and their projections based on this. In Rhode 
Island, our fishermen see different fisheries. Our nurserymen 
see the seasons changing. They have seen winter blooms that 
they have never seen before. Hunters, fishers, naturalists, the 
black-capped chickadee is the State bird of Massachusetts. And 
it is being replaced by the Carolina chickadee, because the 
weather is changing.
    We seem to have an inability here to grasp the obvious that 
people who are out there in the environment, working in the 
real world and the real environment see every single day. I 
don't know what it is about this place that makes it so. But it 
saddens me to hear colleagues cloak this question in economic 
gloom as well as everything else. I think that is an unfair 
thing, it is so un-optimistic about America to cloak it in 
those terms. This could be an area where we are creating jobs, 
where we are creating exports. This is a place where we can 
lower families' and businesses' and schools' energy costs.
    This is an area where we improve our national security. We 
don't have to cloak it in economic gloom. I think it is false, 
I think it is unfortunate. I guess it is rhetorically 
effective. But I really think it is a shame.
    And I hope that the witnesses will talk for a moment during 
the course of their testimony not just about the warming effect 
of the carbon load that we are putting into our atmosphere, but 
also about the ocean acidification effect. Because you know 
what? Even if the .05 percent or whatever it is of scientific 
opinion that doesn't recognize that something serious is going 
on here is correct, and the warming of the planet may not be 
related, carbon dioxide is going up. It is going up in 
unprecedented concentrations. The ocean is a sink for carbon 
dioxide. It is absorbing it. When it does, it changes the 
chemistry. I think these are known facts.
    What we don't know what happens when the chemistry changes, 
because we are hitting unprecedented ocean chemistries. But it 
appears that things like the small mollusks and species that 
make up krill, for instance, the base of the very oceanic food 
chain, could find themselves in an environment in which they 
are unable to make the shells that hold them together out of 
calcium carbonate in the sea. It could well be that the worst 
effect for humankind of our carbon emissions is not climate 
change, but it is ocean change. And I hope that you will 
address that for a moment in your testimony.
    I appreciate very much the Senator's persistent leadership 
through this. I think that as people look back through time and 
look for responsible behavior at this moment, they will see her 
efforts as a shining example and others as regrettable.
    Senator Boxer. I thank the Senator, and just know, this is 
a great Committee. We have a lot of support for this position. 
Last year we had bipartisan support, and I am hoping we will 
have it again.
    We have been joined by Senator Gillibrand, so we are going 
to hear from Senator Udall and Senator Gillibrand.

             OPENING STATEMENT OF HON. TOM UDALL, 
           U.S. SENATOR FROM THE STATE OF NEW MEXICO

    Senator Udall. Thank you, Madam Chair. I really want to 
thank you for all of your work on climate change. When I was in 
the House of Representatives, I followed what you did over here 
in the Senate. To me, you were really the leader and stepped 
out. You put a bill on the floor of the U.S. Senate. We had not 
had in either chamber a bill on the floor, debated, amended, 
discussed. I think that helps the American people in an 
impressive way to start understanding this.
    Then once again today, you have brought together a very 
distinguished panel to address the issue and to get these 
issues out.
    Many of the comments I agree with that were made earlier. I 
just wanted to talk a little bit about the West, and urge the 
panelists to address some of the western issues in terms of 
climate change. I come from a western State, the State of New 
Mexico. As one scientist described to me vividly, what would 
happen in New Mexico, he said with just the trend, the 
conservative trend, not the higher trend or the lower trend, 
but just the conservative trend of where we are headed would be 
the equivalent in weather of putting, as you all know when you 
move these clickers around on a computer screen, click onto the 
State of New Mexico and drag it 300 miles to the south, which 
means that New Mexico would then have the weather of Chihuahua, 
Mexico.
    Now, if any of you have been to Santa Fe, my home town, or 
been to northern New Mexico, the 10,000 foot mountains, the 
snow pack, if you move New Mexico down to Chihuahua, you 
immediately wipe out the snow pack, which is the entire water 
cycle for our region. The snow pack occurs in the winter, 
drains through the spring. For example, the community of Santa 
Fe is fed by two reservoirs. Forty percent of the water of 
Santa Fe is from these two reservoirs.
    And I am just using Santa Fe as an example, this would 
happen all across the West to the snow pack. And I want you to 
talk about that.
    I have also heard, and I think it is a fact, that the West 
is going to be twice as hot in terms of your models than other 
parts of the Country. So that also is going to have an impact, 
not only on water, which we know living in an arid State, we 
know that water is precious, we know that we have to use it 
wisely and global warming is going to make it so that we are 
going to have a lot of difficulty with water. And one of our 
other major industries, agriculture, which uses water, so that 
is going to1have an impact.
    So I am very happy to see Dr. Christopher Field here. He 
was someone who mentored a member of my staff that worked with 
me, Johanna Paulsonberg, on climate matters. She has now moved 
on to other things, but it was wonderful having her on my 
congressional staff, having the benefit of her knowledge that 
she gained from you and from her hard study. So it is great to 
see you here today and I really look forward to hearing the 
entire panel.
    And once again, I congratulate our Chair for pulling 
together such a distinguished panel, which I think when the 
American people hear what these folks have to say, they will 
understand the urgency that we feel for doing something here 
today. So thank you, and I yield my time.
    Senator Boxer. We are getting very close to that moment.
    Senator Gillibrand, you will have the last word. Unless 
Senator Crapo comes back, you will have the last word.

         OPENING STATEMENT OF HON. KIRSTEN GILLIBRAND, 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Gillibrand. As your junior member, I will be short 
and sweet.
    Thank you for your extraordinary leadership. I am extremely 
grateful for your voice for change and for holding this 
hearing. Thank you to our panelists for coming, sharing your 
expertise with us. As President Obama said last night, this is 
an era for solutions. We are looking to you for those solutions 
and for your guidance on how best to tackle climate change.
    In New York State, there is no question that climate change 
exists. You can talk to our hunters in upstate New York, who 
are very familiar with the migratory patterns of birds. They 
know when ice is thawing at a different time of the year. They 
are very much in tune to how our environment has been affected 
by global climate change. You can also ask our mayors and city 
council members downstate, when they have seen massive flooding 
in regions that previously did not have flooding.
    There are so many concerns State-wide that are affecting 
everyone. With regard to flooding, it is an enormous challenge 
for municipalities, for our sewer systems that are going to 
overrun. It is costing enormous amounts of money on the local 
level. But also, it has resulted in lives lost and businesses 
lost and homes lost in upstate New York, in Delaware County, 
where that 100 year flood seems to be coming every summer. It 
is an extraordinary challenge that we face. So we do need to 
focus on the solutions.
    I was very, very grateful to President Obama last night, 
because he talked about a vision for energy independence in the 
next decade. He talked about the investments in green energy, 
in new manufacturing, in building materials that are carbon-
neutral, and in a cap and trade policy. He talked about how we 
need to stimulate our entrepreneurs and our innovators to 
invest in new products, build the electric car. It gets the 
equivalent of 240 miles per gallon. If we had an electric car 
that cost $25,000 to buy, it would revolutionize the entire 
industry. It would revolutionize our environment, and it would 
be the one thing that could combat global climate change 
tomorrow.
    So the opportunities are clear, and the vision of our 
President and our leaders in the Senate and the House are also 
clear. So we look forward to that partnership.
    I have many grave concerns that I hope you will address. I 
was in the Bronx earlier this week, and I was meeting with our 
local elected leaders. The rates of asthma are so high in many 
of our inner cities because of pollution and because of issues 
of climate change. I hope that you can address how these issues 
translate to my community, to lives lost, businesses lost, 
homes lost because of flooding, how it translates to the health 
and welfare of our children because of chronic diseases, 
including asthma and allergies that are being caused by some of 
these changes.
    Thank you for being here. Thank you for your leadership. 
Thank you, Madam Senator, for your leadership as our Chairman. 
I appreciate it very much.
    Senator Boxer. Thank you for your leadership.
    And now, the moment has arrived. We are going to hear from 
Dr. R.K. Pachauri, Chairman, United Nations Intergovernmental 
Panel on Climate Change. It is an honor to have you here, sir. 
Please proceed for 7 minutes.

  STATEMENT OF RAJENDRA K. PACHAURI, PH.D., CHAIRMAN, UNITED 
       NATIONS INTERGOVERNMENTAL PANEL ON CLIMATE CHANGE

    Mr. Pachauri. Honorable Chairperson of the Committee, 
Senator Barbara Boxer, honorable members of the Committee, 
colleagues, distinguished ladies and gentlemen, it is indeed a 
great privilege to be able to testify before this Committee and 
provide an update on the latest global warming science.
    I shall proceed promptly to give you what I wanted to 
present, Madam Chairperson. This is just a very quick overview 
of how the IPCC functions. We have the plenary session, which 
includes all the governments of the world and essentially 
represented by people who are scientifically aware of the 
subject; they approve of the outline of a particular 
assessment. Then we request governments to give us nominations 
and CVs of the range of experts who would work on the 
assessment.
    When they are selected, we carry out the drafting of the 
first version of the report. This is reviewed by experts. Then 
we get to, on the basis of comments that we receive, which are 
carefully logged and documented. We either accept those 
comments, or where they are rejected, we have to give reasons 
why they are rejected. And this is done very transparently. 
Then we move to the second draft and so on.
    What I want to emphasize is the fact that this is a very 
objective, open, transparent process whereby we get the best 
scientists from all over the world to work on each of these 
assessments. I also want to ensure I mention that the review 
process ensures scientific integrity, objectivity, openness and 
transparency.
    We also have great satisfaction in noting that the 
scientific community has endorsed the findings of the Fourth 
Assessment Report of the IPCC. This includes the National 
Academy of Science, the American Meteorological Society, the 
American Geophysical Union, and the American Association for 
the Advancement of Science.
    Climate science has evolved. We now have much deeper 
understanding. We have much better observations and data on the 
basis of which I think science has improved and has progressed 
from one assessment to the other, culminating in the Fourth 
Assessment Report we just completed in November 2007.
    Just to give you an indication of the scale of the human 
effort that goes into this, in the Fourth Assessment Report we 
had 450 lead authors. And these are the actual scientists who 
write the report. We had 800 contributing authors, and these 
are people who are specialized in some specific aspect or the 
other, and they provide inputs. And we had something like 2,500 
scientific expert reviewers. So it is a mammoth exercise, and 
each of these persons work on a voluntary basis. Nobody is 
paid, nobody gets any benefits.
    The input from the American scientific community was 
overwhelming. If you look at these numbers, in each of the 
working group we had coordinating lead authors, lead authors, 
review editors, contributing authors and the total was 825. So 
I would like to express my gratitude on behalf of the IPCC for 
the enormous contribution that the scientific community in the 
U.S. has made to its work.
    The warming of the climate system is unequivocal. This is a 
major finding that we came up with. And I believe there is no 
cause at all for scientific doubt on this. These are 
observations of temperature changes that have taken place and 
you will notice there are ups and downs over here, which is 
clearly on the basis of natural changes, that the climate 
obviously is influenced by, and human changes.
    But what is particularly significant is the fact that if 
you look at the last 100 years, Madam Chairperson, you will get 
an increase of 0.74 degrees Celsius. This is clearly a much 
steeper slope than you will find for the entire 100 years plus 
that you see on this graph.
    Now, if you look at the last 50 years, the rate of increase 
has been even faster, almost twice of what we had in the 100-
year period from this time before. And finally, let me 
emphasize that 11 of the last 12 years rank among the 12 
warmest in the instrumental record of global surface 
temperature.
    Now, here I would like to show you the observations of 
temperature changes. If you look at what our models have shown, 
as a result of just natural factors, then you see a major 
deviation between observations and the projections of these 
models. But once you add man-made factors, and that is 
essentially the concentration of greenhouse gases, you get 
almost a perfect fit. So I want to emphasize that IPCC's work 
takes into account all the natural factors that affect climate 
as well as the human dimensions of what we are doing.
    This is a familiar figure, so I shan't spend any time on 
it. But let me talk of the inequity of climate change impacts. 
In Africa, for instance, by 2020 our projections show that 75 
million to 250 million would be affected by water stress on 
account of climate change, and crop revenues could drop very 
rapidly. So we are really causing major distortions and 
disparities in economic development and growth throughout the 
world.
    I would like to emphasize that delayed emission reductions 
significantly constrain the opportunities to achieve lower 
stabilization levels, and therefore this is an urgent task that 
we have to attend to. If you look at the need to stabilize, 
let's say temperature increase to 2.0 to 2.4 degrees Celsius, 
we have only up to 2015 as the window of opportunity, because 
we will have to ensure that CO<INF>2</INF> emissions peak in 
that year and decline rapidly thereafter.
    Now, this is not going to be an expensive proposition, 
because our estimate is that for this trajectory of 
stabilization, the total cost to the global economy will not 
exceed 3 percent of the global GDP in the year 2030. What does 
that mean? That means essentially if you had no mitigation, 
this is the kind of increase you would get, but with mitigation 
this line bends downwards. Essentially this means that we would 
only delay the level of prosperity that we are likely to 
achieve by a few months, or at the most a year.
    But the good news is that there are huge co-benefits of 
mitigation, which the honorable Senators have already 
mentioned, health co-benefits, much greater employment, 
increased energy security and mitigation can result in near-
term co-benefits that could substantially offset the cost of 
mitigation, in fact, even lead to negative costs.
    Now, I would like to just end by giving some quotations. 
This is what the Secretary General of the United Nations has 
said, and finally, some quotations from the President of the 
United States, President Barack Obama.
    Thank you very much, Madam Chairperson.
    [The prepared statement of Mr. Pachauri follows:]
    
    [GRAPHIC] [TIFF OMITTED]
    
    Senator Boxer. Dr. Christopher Field, Director, Department 
of Global Ecology, Carnegie Institute for Science, at Stanford. 
And he was Co-Chair of Working Group II, which looked at the 
problems that we will be facing in our continent here. So we 
are very anxious to hear from you, sir.

STATEMENT OF CHRISTOPHER FIELD, PH.D., DIRECTOR, DEPARTMENT OF 
  GLOBAL ECOLOGY, CARNEGIE INSTITUTION FOR SCIENCE, STANFORD 
    UNIVERSITY; CO-CHAIR, WORKING GROUP II, UNITED NATIONS 
           INTERGOVERNMENTAL PANEL ON CLIMATE CHANGE

    Mr. Field. Thank you, Madam Chairman and members of the 
Committee.
    It is a pleasure to review the latest updates on the 
science and to give you a feel for the way that the reports of 
the Intergovernmental Panel on Climate Change serve as a very 
strong foundation for new observations that are coming together 
all the time. These two pieces fit together in a comprehensive 
and increasingly compelling way.
    I want to repeat a couple of the comments that Dr. Pachauri 
made about the strength of the IPCC process. The numbers of 
scientists who participate in the IPCC is, of course, very, 
very large. But what is important about the process is that it 
represents an incredibly consistent distilling. Every statement 
that makes its way into the IPCC is challenged, tested, 
challenged again. And by the time a statement makes it into the 
IPCC reports, it has really passed an incredibly high 
threshold. This is to be contrasted with the broader scientific 
literature, which includes a wide range of results that are 
interesting ideas and stand the initial test of time but 
haven't really been exposed to the kind of tests that the IPCC 
reports are, incredibly important distinction about the value 
of assessments.
    Perhaps the key conclusions from the Fourth Assessment 
Report released in 2007 is that there has been clear, 
unequivocal evidence of warming, 1.3 degree Fahrenheit over the 
last 100 years. I think an even more important conclusion is 
that now we have increasingly compelling evidence that human 
actions are very likely responsible for most of the warming 
over the last 50 years. We have a wide variety of fingerprints, 
fingerprints that allow us to test whether it is greenhouse 
gases or some other putative mechanism. What we see 
consistently with each of these fingerprints is that the 
quantitative results, the qualitative results, point toward the 
unequivocal role of the greenhouse gases in driving the warming 
that has occurred.
    There is a question of how much warming will occur in the 
future. It is clear that the mechanisms that have been put in 
place by greenhouse gas emissions will continue and without 
decisive action to reduce CO<INF>2</INF> emissions to the 
atmosphere, the business as usual type of possibilities result 
in temperatures at 2100 where, with a low emissions pathway, we 
could end up with global average warming of somewhere in the 
range of 2 to 5.2 degrees Fahrenheit. With a high possibility, 
it could be in the range of 4 to 11. Of course, the recent 
trajectory of greenhouse gas emissions has even been higher 
than what is characterized as the highest scenario in the IPCC 
reports, leading to the conclusion that we fundamentally 
haven't tested the consequences of the emission trajectory that 
we now know we are on.
    There are a wide variety of impacts, and they go everywhere 
from ecosystems to industry to human health. I want to 
characterize some of the most important findings of the IPCC 
with regard to impacts on the United States, especially. One of 
the most compelling is that there is clear evidence that we 
have already seen, impacts on western water resources. There is 
earlier peak in the flow of western rivers. There is a decrease 
in the amount of snow that is stored in the western snow pack. 
It is up to 30 percent in many years. We are also seeing a 
decreased springtime and summertime flow in many rivers that 
are important to the support of ecosystems.
    The projections of climate change impact for water 
resources in the West are really compelling. There is this 
gigantic tongue of reduced runoff, essentially, severe drought, 
that runs all the way from California to Oklahoma. The broad 
swath of the Southwest is basically robbed of the water to have 
sustainable lifestyles.
    It is clear that we are seeing increased areas consumed in 
wildfire already. The quadrennial fire review just released by 
the U.S. Federal agencies shows that in the 1980s, there were 
50 wildfires, more than 50,000 acres. In the decade starting in 
1999, there were 240. The projections are clear that as the 
time between the melt of the snow in the spring and the first 
snow in the fall increases, we have greater and greater risk of 
wildfires and more and more problems associated with fighting 
wildfires.
    It is also clear that many U.S. cities are already seeing 
increased numbers of heat waves, hot days, hot nights, and 
extended periods of heat. And there are very many cities, 
Sacramento is a good example, where just a small amount of 
warming transitions days that are uncomfortably hot into 
potentially life-threatening heat waves. So we are very close 
to a threshold in a very large number of American cities.
    It is very difficult to translate the full range of climate 
impacts into economic costs. The IPCC has attempted to do that, 
and comes up with a relatively wide range. The range is that 
the social cost of carbon, the integrated damages across all 
the sectors could be anywhere from $3 to $95 per ton of 
CO<INF>2</INF>. That could result in, if we take the integrated 
costs of the CO<INF>2</INF> emitted this year worldwide, 
anywhere from $110 billion to over $3.6 trillion of cumulative 
impacts, and if you contrast that with the cost of 
stabilization, the costs are really quite modest. Several of 
you have already spoken about the possibility that we might 
achieve net economic benefits as a consequence of tackling 
climate change, and the IPCC concludes the same. But there also 
could be costs that could be as much as 3 percent of GDP going 
out to 2030.
    If you look at new observations, it is clear that things 
have continued to change, and they have changed very rapidly, 
mostly in ways that were discussed by the IPCC, but haven't yet 
been confirmed, because the evidence wasn't yet strong enough. 
CO<INF>2</INF> emissions have been increasing very, very 
rapidly. From 2000 to 2007 the annual rate of increase was 3.5 
percent per year, contrasted with 0.9 percent per year from 
1990 to 1999, over a threefold increase. We have seen rapid 
shrinkages in the area covered by Arctic ice, so that in 2007, 
the area of minimum summer ice in September was 37 percent less 
than the long-term average. It was more than 20 percent less 
than the previous low in 2005. And just within the last few 
months, we have seen confirmation that the continent of 
Antarctica has been warming, and it has been warming at a rate 
of almost .2 degrees Fahrenheit per decade, comparable in pace 
to much of the rest of the southern hemisphere.
    In some we are seeing a very wide range of documented 
impacts. We have increased confidence that these are due to 
humans and the fingerprints are really compelling. Many areas 
of risk for the United States, and the costs for mitigation 
appear to be modest in terms of the long-term costs of doing 
nothing.
    Thank you very much.
    [The prepared statement of Mr. Field follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Boxer. Thank you very much.
    And now, we are going to turn to Dr. Howard Frumkin, 
Director, National Center for Environmental Health, Centers for 
Disease Control and Prevention. He is the Director of the 
Agency for Toxic Substances and Disease Registry.
    Thank you very much, Doctor.

   STATEMENT OF HOWARD FRUMKIN, M.D., MPH, DR.PH., DIRECTOR, 
 NATIONAL CENTER FOR ENVIRONMENTAL HEALTH, CENTERS FOR DISEASE 
 CONTROL AND PREVENTION; DIRECTOR, AGENCY FOR TOXIC SUBSTANCES 
                      AND DISEASE REGISTRY

    Dr. Frumkin. Madam Chair, members of the Committee, thank 
you very much for the opportunity to testify today.
    It is clear that your eloquence as Senators far outstrips 
our aptitude as PowerPoint users here on the panel.
    [Laughter.]
    Dr. Frumkin. Dr. Field addressed himself to earth system 
changes, and drew heavily on the earth and atmospheric sciences 
to update you. I would like to turn now to the human impacts of 
climate change and draw on the health sciences to update you. I 
do this, because climate change is expected to have very real 
impacts on the health and well-being of real people. That is of 
great concern to us at the CDC and we think to the entire 
Nation.
    The health science research, as it emerges, is suggesting 
to us a number of impacts of climate change on health and well-
being. They are shown here on this slide, and they are 
described in more detail in my written testimony. The direct 
effects of heat can be dangerous to people, especially during 
heat waves, as we have seen. Severe weather events, both rapid 
ones like tornadoes and hurricanes, and drawn-out ones, like 
floods, have a range of impacts on health, as we have seen 
tragically in recent years in this Country.
    Air pollution worsens in several respects under warming 
scenarios. That has impacts on cardiovascular and respiratory 
health and on longevity. Allergies are expected to worsen 
because certain plants that are sources of allergens, from 
ragweed to poison ivy, seem to thrive under climate change 
scenarios.
    Many vector-borne diseases, traditionally called tropical 
diseases, in a reminder that these diseases are ecosystem 
dependent. As ecosystems shift and as the range of these 
diseases shifts, we expect impacts on human vulnerability and 
on disease incidence as well. Water-borne diseases are clearly 
linked to severe rainfall events and to changes in temperature. 
Threats to the water and food supply can be serious, as 
agricultural output changes under climate change scenarios. 
That in turn affects nutrition and health status.
    Mental health impacts are considerable. We are now 
appreciating that one of the longest-lasting and most serious 
impacts of Hurricane Katrina, for example, has been the mental 
health impact. We need to attend to that in future climate 
change scenarios as well. Finally, the possibility of 
dislocation and migration has public health impacts on those 
who need to move.
    Each of these health impacts teaches us specific lessons 
that are important to keep in mind. With regard to heat, we 
have long experience with heat waves, we have conducted 
extensive epidemiologic studies, we know who in cities is most 
vulnerable and we know the steps that we can take to protect 
the health of people from the effects of the heat wave. This is 
a good example of how good epidemiology and good preparedness 
can help us protect the public.
    Infectious diseases teach us a different lesson. These are 
extremely complex phenomena. Climate change is expected to 
affect the baseline risk of infectious diseases, but many other 
factors play a role as well, from air conditioning to the 
presence of screens to underlying health status. We need 
considerable research to understand best how infectious 
diseases will unfold. We also need very good surveillance and 
early warning systems. These are key tools in public health, 
because we need to recognize these diseases, if and when they 
change their range.
    The mental health outcomes remind us of the need to be very 
broad-thinking and holistic as we consider the impacts on 
health. And the question of food is a reminder that we need to 
look outside the health sector itself and upstream to other 
sectors whose activities and products affect and determine 
health. For example, agricultural output--we have evidence 
emerging now that protein content of certain food crops is 
diminished under climate change scenarios. That will affect the 
nutritional value of foods that some people eat, and for some 
that will have a measurable health impact.
    The good news here is that few of these are new problems. 
Many of these are longstanding problems. Climate change serves 
not as a revolutionary change, but as an amplifier or 
multiplier of existing and fairly well understood risks. We 
have in our public health tool box the tools and strategies 
that we need in many cases to address these problems and to 
protect the public. These, after all, are the tools and 
strategies of public health preparedness.
    We need to undertake surveillance and data collection, 
collecting the baseline information that we need to track 
trends and to recognize perturbations. We have talked earlier 
in this panel about modeling and forecasting. We need to 
downscale modeling and forecasting from the global scale to the 
regional and even the local scale, where health impacts will 
play out. And we need to extend existing models to health 
impacts themselves.
    We need to take direct actions to protect the public. For 
example, heat wave preparedness plans are available for cities 
to use; GIS systems can identify who is vulnerable, buddy 
systems can be put in place to reach out to those individuals 
when heat waves should occur, they can be brought to refuge 
centers if necessary to protect them during a heat wave, the 
health care system can be prepared and equipped to deal with 
hyperthermic health outcomes. We know how to do those plans, 
and we need to be working on those.
    We need effective communication. Using the lessons of 
health communication, we have great experience in the health 
sector in delivering tough messages: exercise more, eat better 
food, quit smoking. Many of the same communication techniques 
will be useful as applied to climate change, so that people can 
receive and understand useful information, and not despair, but 
take constructive action.
    We need to undertake training and capacity building, so 
that at the State and local level, members of our health 
departments know how to use these tools, know how to implement 
them, and can do their job to protect the public. And we need 
to undertake research, because there is much we still need to 
learn about climate change, the biomedical and basic biological 
dimensions of climate change, as they will affect health.
    I want to close by pointing to the benefits of taking many 
of these steps, and these are co-benefits. Indeed, there are 
sweet spots here. The public health actions we need to take to 
protect against climate change, ranging from research to 
surveillance to early warning systems, will have benefits 
across the entire system of public health, not simply limited 
to climate change.
    In effect, many of the actions that we need to take to 
address climate change will have benefits for health more 
broadly. If we shift our transportation patterns to more 
walking and bicycling and less use of vehicles, those are steps 
we need to take in an increasingly sedentary and overweight 
society anyway. And those will also be steps that address 
climate change.
    So the combined health, economic and social benefits of 
addressing climate change are very much on our mind as we 
prepare the public health responses to best protect the public. 
Thank you very much.
    [The prepared statement of Dr. Frumkin follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Boxer. Thank you very much.
    Dr. William Happer, Professor of Physics, Princeton 
University. And as I understand it, also Chairman of the George 
C. Marshall Institute. Welcome.

    STATEMENT OF WILLIAM HAPPER, PH.D., CYRUS FOGG BRACKETT 
           PROFESSOR OF PHYSICS, PRINCETON UNIVERSITY

    Mr. Happer. Thank you.
    Let me state clearly where I probably agree with the other 
witnesses. We have been in a period of global warming, but it 
has been going on for about 200 years. Also, there have been 
several periods, like the last 10 years, when the warming has 
ceased. In fact, there has been a little bit of cooling over 
the past 10 years. There have even been periods of substantial 
cooling, for example, from 1940 to 1970. You can see that on 
Dr. Pachauri's chart.
    Atmospheric concentrations of carbon dioxide have increased 
from about 280 to 380 parts per million over the past 100 
years.
    The combustion of fossil fuels, coal, oil, natural gases, 
contributed to this increase in the atmosphere. Finally, 
increasing concentrations of CO<INF>2</INF> in the atmosphere 
will cause some warming of the earth's surface. The key 
question is, will the net effect of the warming and any other 
effects of CO<INF>2</INF> be good or bad for humanity? I 
believe the increase of CO<INF>2</INF> will be good.
    I predict that future historians will look back on this 
period much as we now look back on the period just before we 
passed the 18th Amendment to the U.S. Constitution to prohibit 
the manufacturing, sale or transportation of intoxicating 
liquors. At the time, the 18th Amendment seemed to be exactly 
the right thing to do. It was the 1917 version of saving the 
planet from the ravages of climate change.
    More than half the States enacted Prohibition laws before 
the 18th Amendment was finally ratified. Only one State, Rhode 
Island, voted against it, and my hat is off to the Senator from 
Rhode Island. I am sorry he is not here.
    There were many people who thought that prohibition might 
do more harm than good, but they were completely outmatched by 
the Temperance movement, whose motives and methods have much in 
common with the movement to stop climate change. Deeply sincere 
people felt they were saving humanity from the evils of 
alcohol, just as many people now sincerely think they are 
saving humanity from the evils of CO<INF>2</INF>.
    Prohibition was a mistake, and our Country has probably 
still not fully recovered from the damage it did. For example, 
institutions like organized crime got their start in that era. 
Drastic limitations on CO<INF>2</INF> are likely to damage our 
Country in an analogous way. There is tremendous opportunity 
for corruption there.
    There is little argument in the scientific community that 
the direct effect of doubling CO<INF>2</INF> concentrations 
will be a small increase in the earth's temperature, on the 
order of 1 degree Centigrade. That is not enough to worry about 
it. Further increases will cause even less temperature rise.
    To get the scary scenarios that we hear about, water vapor 
and clouds must amplify the direct effects of CO<INF>2</INF>. 
In fact, observations suggest that water vapor and clouds 
actually diminish the already small global warming expected 
from CO<INF>2</INF>, not amplify it. The evidence comes from 
satellite measurements of infrared radiation escaping from the 
earth into outer space, from measurement of the sunlight 
reflected from clouds and from measurements of the temperature 
of the earth's surface.
    I keep hearing about the pollutant CO<INF>2</INF>, or about 
poisoning the atmosphere with CO<INF>2</INF>. CO<INF>2</INF> is 
not a pollutant. It is not a poison and we should not corrupt 
the English language by depriving pollutant and poison of their 
original meaning. When we exhale, each of us here, our exhaled 
breath is 4 percent CO<INF>2</INF>. That is about 40,000 parts 
per million, 100 times the current atmospheric concentrations. 
CO<INF>2</INF> is absolutely essential for life. Commercial 
greenhouse operators often use CO<INF>2</INF> as a fertilizer 
to improve the health and growth rate of their plants. Plants 
and our own primate ancestors evolved when the levels of 
atmospheric CO<INF>2</INF> were about 1,000 parts per million, 
a level we will probably not reach by burning fossil fuels. By 
the way, the oceans did just fine then, at 1,000 parts per 
million. There was no problem with acidification and lots of 
coral reefs grew very vigorously.
    We are all aware that the green revolution has increased 
crop yields around the world. Part of this wonderful 
development comes from improved crop varieties, better use of 
mineral fertilizers, herbicides, et cetera. But no small part 
of the yield improvement has come from increased atmospheric 
levels of CO<INF>2</INF>. If we decrease our current levels of 
CO<INF>2</INF> to those that prevailed a few hundred years ago, 
I don't know how we would do that, but if we did, we would lose 
part of the green revolution, and the green revolution has yet 
to run its course, if we let CO<INF>2</INF> continue to go up.
    I often hear there is a consensus behind the idea of 
impending disaster from climate change that already it may be 
almost too late to avert this catastrophe, even if we stop 
burning fossil fuels. Well, first, what is correct in science 
is not determined by consensus, but by experiment, observation, 
testing. I can't think of any other branch of science where an 
international organization is needed to determine the truth. 
This is the first time this has ever happened.
    Second, I don't think there is a consensus about an 
impending climate crisis. Like the Temperance movement 100 
years ago, the climate catastrophe movement has enlisted the 
mass media, leadership of scientific societies, trustees of 
charitable foundations, many other influential people to their 
cause. Even elementary school teachers and writers of 
children's books terrify our children with the idea of 
impending climate doom. Children should not be force fed 
propaganda masquerading as science. Many of you know that in 
the year 2007, a British court ruled that if Al Gore's book, An 
Inconvenient Truth, was used in British public schools, that 
children had to be told of 11 particularly troubling 
inaccuracies. For example, the court ruled it was not possible 
to attribute Hurricane Katrina to CO<INF>2</INF>. Indeed, if we 
had taken a small fraction of the many billions of dollars that 
we spent on climate change research and propaganda and fixed 
the dikes and pumps around New Orleans, there would have been 
no disaster.
    I regret that climate change issues have become confused 
with serious problems like secure energy supplies, protecting 
our environment and figuring out where future generations will 
get energy or chemical feedstocks after we have burned all the 
fossil fuel we can find. I hope we don't confuse these laudable 
goals with hysterics about carbon footprints. I hope Congress 
will choose to promote investment in technology that addresses 
real problems and scientific research that will help us cope 
with these real problems.
    Thank you.
    [The prepared statement of Mr. Happer follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Boxer. Thank you very much.
    I just want to put into the record a list of the various 
foundations that the ExxonMobil gives money to, and note that 
Dr. Happer, your George C. Marshall Institute receives almost a 
million dollars over the past 10 years from Exxon.
    Your words are very alarming to me, sir, because you are 
basically saying to these three gentlemen that they are feeding 
us propaganda. And I have read other things you have said which 
compares people who are talking about climate change to the 
Germans during the Nazi era. I have that, I will put that in 
the record.
    [The referenced information follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Boxer. And you also talked about hysterics. Now, 
the last thing I would say that came out of these three 
scientists was hysterics. I was wondering when they would 
actually raise their voice above a very modest level. They are 
very clear in what they have learned from the science. I 
haven't heard hysterics.
    So I would, because you made that charge, ask each of them 
to just talk about how you view the scientific consensus on 
this. Is there a consensus on this, and are people who are 
saying it is hysterics or saying it is propaganda, are they 
outliers in terms of the scientific community? And I don't mean 
particularly Dr. Happer, but just, he is saying things that 
some outliers and some members of this Committee say.
    And I think it is important, I know Dr. Pachauri, you have 
put forward all the steps that were taken. But if you could 
just address in just conversational terms whether or not what 
you have told us today is propaganda or hysterics.
    Mr. Pachauri. Thank you, Madam Chairperson. Let me once 
again repeat that the IPCC functions on the basis of mobilizing 
the best talent from across the world. And incidentally, all 
those that are chosen for carrying out this task are 
essentially those that have been nominated by governments and 
then carefully selected on the basis of the record of research 
that they have carried out.
    I also want to state that all the work that the IPCC does 
is based on peer-reviewed literature. The IPCC itself doesn't 
carry out any research. It looks at peer-reviewed literature in 
well-established journals. And therefore, if this doesn't 
represent a consensus of the best scientific expertise drawn 
from all over the world, I would like to ask what would.
    And I mentioned also, Madam Chairperson, that in the Fourth 
Assessment Report, we had an overwhelming number of people from 
the U.S., very distinguished scientists. And these were those 
who were actually nominated and then subsequently selected by 
the IPCC. They were nominated by the previous Administration. I 
am talking about the year 2002, 2003.
    And finally, may I also say with all due respect to our 
distinguished colleague from Princeton--very truly an 
outstanding institution; I myself have had some association and 
continue to have a modest association with a somewhat 
relatively unknown institution called Yale University.
    I would like to emphasize this analogy of the Temperance 
movement. I think if you go down the annals of history, you 
will find more people have suffered for having opposed 
conventional thinking on subjects like cosmology, on the laws 
of gravity. I just want to mention one single name. In the year 
1600, there was a person called Giordano Bruno who was burned 
at the stake simply because he believed that the world is 
really something that is part of a much larger universe.
    So I would like to submit that whenever new knowledge has 
emerged, there has been resistance, there has been denial and 
ultimately, thank God, the truth has prevailed. And I would 
believe the truth exists today.
    Senator Boxer. Well, let me do this, because my time is 
running out. I am going to ask the last question of mine to Dr. 
Field, and pick up again on what Dr. Happer said. First, he 
said that there was a cooling trend, and then he switched and 
said, I think increases of CO<INF>2</INF> will be good for 
humanity. So I don't know from that whether he thinks there is 
a cooling trend or---- but let's forget that.
    He said, increases of CO<INF>2</INF> will be good for 
humanity. So I guess I need to ask Dr. Field and Dr. Frumkin 
quickly to explain whether they agree with that or not.
    Mr. Field. Thank you very much. The temperature records for 
2008 have just been released by NASA's Goddard Institute for 
Space Studies; 2008 was the ninth warmest year in the 
instrumental record. The fact of the matter is that 
CO<INF>2</INF> does increase the growth of some plants, but not 
all plants. Some major crops, corn, sugar cane, sorghum, use a 
different photosynthesis pathway and are not at all stimulated 
by increased atmospheric CO<INF>2</INF>.
    Early results on CO<INF>2</INF> as an agriculture 
fertilizer suggest that it might be quite powerful in 
increasing yields by maybe 25 to 30 percent, but recently we 
have developed a series of new technologies called free air 
CO<INF>2</INF> enrichment that allow us to do genuine field 
scale tests of how much doubling atmospheric CO<INF>2</INF> 
increases the growth of major crops. And the evidence is that 
doubling CO<INF>2</INF> in cooler regions in the United States 
can increase crop growth maybe 10 to 20 percent. So certainly 
not a significant amount. And in the context, well, it could be 
important.
    And in the context of the rising temperatures that are 
caused by the greenhouse effect of CO<INF>2</INF>, we basically 
see downward pressure from the climate change and a small 
upward pressure from the CO<INF>2</INF>. The IPCC conclusion is 
that in the United States, for the next few decades, we might 
see those approximately balancing each other out. Once the 
temperature increase gets to be greater than about 3 degrees 
Fahrenheit, the warming trend is expected to be the dominant 
one, with crop yields going down.
    Senator Boxer. Thank you.
    And Dr. Frumkin, since you are an expert on health, do you 
agree that CO<INF>2</INF> is going to be good for humanity, an 
increase in CO<INF>2</INF> is going to be good for humanity?
    Dr. Frumkin. No, Senator Boxer. The combination of rising 
CO<INF>2</INF> and the associated earth system changes, such as 
warmer temperatures, will have a range of impacts on health, as 
I described earlier. Both the diminished agricultural output, 
especially in vulnerable parts of the world, and the other 
impacts, such as worsening air pollution and aggravation of 
allergies, collectively give us much more concern than 
reassurance.
    Senator Boxer. Senator Inhofe.
    Senator Inhofe. Thank you.
    Let me share something I was just handed. This is new news 
that came out apparently today. The U.K. Register has reported 
that ``Japanese scientists have made a dramatic break with the 
U.N. and western-backed hypotheses of climate change. The 
IPCC's conclusion that from now on atmospheric temperatures are 
likely to show a continuous, monotonous increase should be 
perceived as an unprovable hypothesis.''
    Dr. Pachauri, you have made several statements in 2003 and 
2008 concerning the Flat Earth Society, which I think is fine. 
t is a type of name calling I suppose that is good. It can get 
that way.
    Many scientists who doubt what you claim are included in 
our U.S. Senate minority report, the one I referred to. And 
they have cited you and Al Gore as other characterizations of 
skeptics as one of the key motivating factors to publicly speak 
out in dissent. Climate statistician Dr. William M. Briggs is 
one of those scientists who are not happy with your comments. 
Briggs specializes in the statistics of forecast evaluation, 
serves on the American Meteorological Society's Probability and 
Statistics Committee, and is an associate editor of the Monthly 
Weather Review. He wrote in 2008, ``After reading U.N. IPCC 
Chairman Pachauri's asinine comment comparing skeptics to Flat 
Earthers, it is hard to remain quiet.''
    Paleoclimate expert Augusto Mangini of the University of 
Heidelberg in Germany criticized the U.N. IPCC summary, ``I 
consider the part of the IPCC report which I can really judge 
as an expert,'' in other words, the reconstruction of the 
paleoclimate, ``wrong.'' He added, ``The earth will not die.''
    South African nuclear physicist and chemical engineer Dr. 
Philip Lloyd, a U.N. IPCC co-coordinator, lead author who has 
authored more than 150 publications, stated ``The quantity of 
CO<INF>2</INF> we produce is insignificant in terms of the 
natural circulation between air, water and soil. I am doing a 
detailed assessment of the U.N. IPCC's reports and the summary 
for policymakers identifying the way in which the summaries 
have distorted the science.''
    Victor Emmanuel Vacquier, a researcher at the Institute of 
Geophysics of the University of New Mexico stated ``the models 
and forecasts of the U.N. IPCC are incorrect because they only 
are based on mathematical models and presented results 
scenarios.'' Indian geologists, and you could probably help me 
with the pronunciation of this name, Dr. Pachauri, but it is 
Arun Ahluwalia, of Punjab University, and a board member of the 
U.N.-supported International Year of the Planet, ``The IPCC has 
actually become a closed-circuit. It doesn't listen to others. 
It doesn't have open minds. I am really amazed that the Nobel 
Peace Prize is being given on scientifically incorrect 
conclusions by people who are not geologists.''
    Dr. Nicholas Drapela of the faculty of the Oregon State 
University chemistry department described the U.N. IPCC this 
way: ``The Intergovernmental Panel on Climate Change is a body 
of the United Nations, it is not a scientific body, it is a 
political body.'' Dr. John Rignold, a U.K. emeritus engineering 
professor at the University of Southampton, who held the chair 
in industry instrumentation at Southampton, accused the U.N. of 
censorship on July 23d of 2008, just last year. Dr. Rignold 
wrote, ``Here was a purely political body posing as a 
scientific institution. They acted in concert to keep out alien 
or hostile opinion. Peer review developed into a mantra that 
was picked up by political activists who clearly had no idea of 
the procedures of science or its learning societies.''
    Another one of the IPCC scientists not happy with your 
group's process accused the IPCC of ignoring skeptical 
comments. The IPCC 2007 expert reviewer, Medhav Chandakar, a 
Ph.D meteorologist, a scientist with the Natural Resources 
Stewardship Process, who has over 45 years' experience in 
climatology, meteorology, oceanography, and who has published 
nearly 100 papers and reports, said ``To my dismay, IPCC 
authors ignored all of my comments and suggestions for major 
changes in the first order draft and sent me the second order 
draft with essentially the same text as the first order draft. 
None of the authors of the chapter bothered to directly 
communicate with me or with other expert reviewers with whom I 
communicate on a regular basis on many issues that were raised 
in my review. This is not an acceptable scientific process.''
    I want to comment on another one. This is the former 
Colorado State climatologist, Roger Pielke, Sr., analyzed your 
most recent, and this is you, Dr. Field, your most recent 
scientific claims on February 15th, 2009. Dr. Pielke suggested 
that this claim conflicts with real world observations. He 
observed that since mid-2003, there have been no upper ocean 
global average warming and observation which is not consistent 
with the GISS model predictions. Over this time, the recent and 
current tropospheric temperature data also shown in the lower 
tropospheric temperatures today are no lower than they were in 
2002. The recent global warming is less than the IPCC models 
predict and even more so in disagreement. And this is a quote, 
he said, ``When will the news media,'' this is significant, I 
agree with this, ``When will the news media and others realize 
that by presenting such biased reports, which are easily 
refuted by real world data, they are losing their credibility 
among many of the scientific community as well as the public?''
    Let me just say, Dr. Happer, you have had a lot of 
criticism here by the others. I thought I would take the 2 
minutes I have remaining----
    Senator Boxer. You had seven. You had seven when we 
started. So you are out of time.
    Senator Inhofe. I hope you will have the opportunity to 
refute and certainly do that to each and every allegation in 
perhaps a written communication. Would you do that?
    Mr. Happer. Well, do I have some time to respond?
    Senator Boxer. Well, excuse me. You have run out of your
    seven minutes. I gave you seven, I had seven.
    Senator Inhofe. Thank you, Madam Chairman.
    Senator Boxer. So we are going to have to put it off. But I 
could also say, you spent your entire 7 minutes attacking the 
rest of the panel, so we will need to have these----
    Senator Inhofe. No, I was quoting scientists, Madam 
Chairman.
    Senator Boxer. Who were attacking the IPCC.
    Senator Inhofe. That is correct.
    Senator Boxer. And I would like to put into the record this 
Japan Society of Energy and Resources that you broke the news 
to us, they are dominated by the power companies in Japan, the 
gas chemical companies. And I put that in the record.
    [The referenced material was not received at time of 
print.]
    Senator Boxer. I would call on Senator Lautenberg.
    Senator Lautenberg. Thank you very much, Madam Chairman. I 
want to ask Dr. Pachauri, what are the credentials for 
membership in the IPCC? Is there a credential that one has to 
bring to be a member? This is a member association, is it not?
    Mr. Pachauri. May I respond to that, Madam Chairperson?
    Senator Lautenberg. Yes.
    Mr. Pachauri. Right.
    Senator Lautenberg. That is my time.
    Mr. Pachauri. Yes, sir. So as I mentioned, what we do is we 
first, on the basis of----
    Senator Lautenberg. As short as you can, please.
    Mr. Pachauri. Yes, detailed exercise, scope out the 
contents of a particular report, then we write to governments 
to send us nominations of scientists who can work on the 
report. These are then selected by the bureau of the IPCC 
purely on the basis of their research record and their CVs. So 
it is entirely a merit-based system.
    Senator Lautenberg. How many members presently constitute 
the organization?
    Mr. Pachauri. Well, there is no permanent membership per 
se. For each particular report, we mobilize a team of the best 
scientists that we can get.
    Senator Lautenberg. How many people contribute to it?
    Mr. Pachauri. Well, like in the last Fourth Assessment 
report, we had 450 people who actually wrote the report, 2,500 
odd who actually reviewed various drafts, and in addition, 800 
so-called contributing authors. So I would say roughly 4,000 
plus.
    Senator Lautenberg. Dr. Happer, I have to commend you for 
courage, even though we radically differ on the view of what is 
happening.
    From 1980 to 1994, it is said by CDC, and correct me, Dr. 
Frumkin, if I am wrong, that there was a 75 percent increase in 
the number of cases of asthma and 150 percent increase among 
children. Now, is that some kind of a coincidental thing, or do 
you believe that there is any kind of cause that might bring 
that situation to us? Dr. Happer.
    Mr. Happer. Oh, for me?
    Senator Lautenberg. Yes. I am sorry.
    Mr. Happer. I am glad you asked. I actually started a 
little company that looks at asthma and lung imaging a few 
years ago. So I learned a fair amount about that. The people I 
talk to, physicians, felt that much of it was due to indoor 
dust and that, especially slum dwellers were exposed to such 
dust. I am not a physician, but it was believed to be sort of a 
lifestyle thing.
    Now, maybe that is associated with temperature one way or 
another. Maybe more air conditioning is a bad thing, I don't 
know. But this is the limit of what I can respond to on this.
    Senator Lautenberg. Dr. Frumkin.
    Dr. Frumkin. Asthma is on the rise. The causes are very 
complex and not fully understood. But what is clear is that 
once people have asthma, and this is especially an issue for 
children, some of the effects of climate change especially 
affect those individuals. They are especially susceptible. So 
the problems with air pollution, and the problems with allergen 
production that rise with climate change are especially 
worrisome for those with asthma, a larger population now than 
it has been in the past.
    Senator Lautenberg. Dr. Happer, you dispute the fact that a 
consensus has validity, do I understand you correctly?
    Mr. Happer. Consensuses are often wrong in science and in 
other spheres of human life. For example, in my field, 
physicists covered themselves with shame 100 years ago when 
they debated with Darwin how old the earth was. I mentioned 
some of this in my written testimony. But there was complete 
consensus in the physics community the earth couldn't be more 
than a few tens of millions of years old. They were completely 
wrong and Darwin was right.
    So consensus is not the way to determine the truth.
    Senator Lautenberg. Do you challenge the findings that were 
presented here by your colleagues about the growth in warming 
and the severity of storms, sea rising?
    Mr. Happer. Yes, I do, actually. If you look at the records 
of hurricanes, they have not increased at all. That is public 
knowledge. And as for warming, it is still not as warm as it 
was when the Vikings settled Greenland. They were not growing 
potatoes, but they were exporting sheep to Norway. So there 
have been huge fluctuations in the climate that IPCC doesn't 
even try to explain.
    Senator Lautenberg. Do you think there is a conspiracy, Dr. 
Happer?
    Mr. Happer. No, no, not at all.
    Senator Lautenberg. Well, permit me to finish the sentence, 
please. That this is a, that there is a conspiracy that is 
presenting this thing that is a hoax that is being delivered to 
the world at large because of a conspiratorial alliance?
    Mr. Happer. No. I really respect the people working on 
this. I think they really think they are doing good, they want 
to save the world. We all have an urge to do something good. 
That is why we are put in the world. I think they have made a 
mistake.
    Senator Lautenberg. No, but can this, the charge that this 
is a hoax, that global warming is a hoax, could you say that 
that is the kind of a joke you could laugh at?
    Mr. Happer. No, I don't agree that it is a hoax. I said 
what I thought it was, I think it is a mistake. A hoax means 
that someone is intentionally trying to deceive you. I don't 
think that is the case. I don't think that my colleagues are 
doing that at all.
    Senator Lautenberg. Thank you very much.
    Senator Boxer. Thank you.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Madam Chairman. 
Thank you to all of you.
    I wanted to ask just some specific scientific questions on 
the status of the research. We have heard a lot, Dr. Pachauri, 
about how there has been some changes to the models about 
concerns about even more immediate and dramatic climate 
changes. And I have heard some of that is due to the increased 
levels of methane emissions that may be coming from the melting 
of the polar ice. Could you enlighten us about this idea that 
these methane emissions coming from the polar ice are going to 
create more global warming?
    Mr. Pachauri. Absolutely, Madam Senator. As a matter of 
fact, there are a number of other factors also which, with 
further warming, could lead to larger emissions of greenhouse 
gases. The oceans, for instance, which hold large quantity of 
carbon dioxide, with warming could lead to a release of some of 
that carbon dioxide. This is an area which is being studied in 
considerable detail. But the indications are very clear that, 
for instance, the permafrost melting will result in other 
greenhouse gases, and additional greenhouse gases being emitted 
into the atmosphere.
    Senator Klobuchar. So it is more than just the warming 
started all this, so when, I am just trying to understand this, 
so when suddenly the ice starts to melt, that actually leads to 
more of these gases getting out, is what you are saying? OK.
    And then, second question I had is just about the timing of 
this. The next IPCC report is going to be out in 2014, is that 
right? And I am just thinking, we are doing all this work right 
now, and is there going to be some kind of preliminary 
assessment out in between the last one and this one?
    Mr. Pachauri. Actually, to carry out a thorough and 
reliable assessment of climate change, we really need this kind 
of period of time, Senator. And this time around, we are also 
developing some new scenarios of the way economic growth, 
technology changes and so on will take place. So we really 
would not be able to come up with anything more than a very 
preliminary assessment of how things are changing.
    Senator Klobuchar. Could you tell me a little, just based 
on your international work, about how some of the major 
economies like India and China are interpreting some of the 
IPCC data and what is happening there?
    Mr. Pachauri. Senator, there is a substantial concern in 
all the countries of the world about the impacts of climate 
change. Because some of these nations are going to be impacted, 
are going to receive the impacts of climate change that would 
really disrupt not only their economy but their ecosystems and 
so on.
    One point that I would like to mention is that the problem 
today has been caused not by flows or emissions that are taking 
place currently but by the stock which has accumulated 
essentially as a result of development in the industrialized 
countries. And I think it is for this reason that the framework 
you mention on climate change talks about common but 
differentiated responsibility.
    And therefore, may I submit--this is purely a personal 
opinion--I think for a country like the United States to lead 
is critically important. The number of technologies that you 
develop over here, whether it is motorcars or something else, 
will be used by the developing countries as well.
    Senator Klobuchar. Exactly. Mr. Field, could you talk 
about, you talked about your assessments and what is happening 
and the models. Could you focus a little on the Midwest and 
what you have seen there? In our State, we seem to have more 
fires and floods and things in recent years, especially in the 
warm years. Could you talk about that?
    Mr. Field. The United States is expected to have diverse 
impacts of climate. And some of those impacts will be positive. 
There are deaths that result from cold temperature. And the 
real challenge in trying to understand the overall effect is to 
add up the pluses and the minuses and the conclusion of the 
IPCC and of the scientific assessment process is that the 
minuses dramatically outweigh the benefits.
    In the United States, many of the most serious impacts will 
be a consequence of changes in water supply and precipitation 
is one of the things that is difficult to project from the 
climate models. In the United States, the clearest decreases in 
expected precipitation are in the West and the Southwest, with 
uncertain trends in the upper Midwest. I think the things that 
we see clear evidence of in the upper Midwest are increased 
number of heat wave days, even in cities that are relatively 
cool. The consequences of heat waves vary from place to place, 
and cooler cities are not necessarily immune from them. There 
also are a wide range of concerns about sustainability of water 
resources in the Great Lakes Region and the transportation is 
subject to relatively modest----
    Senator Klobuchar. The barge traffic and----
    Mr. Field [continuing]. Increases in lake level, which 
become increasingly difficult to predict in an environment 
where year to year, variation rainfall increases. And that is 
one of the clearest consequences of the climate models.
    Senator Klobuchar. Thank you very much. I appreciate all of 
your work.
    Senator Boxer. Thank you, Senator.
    Senator Merkley.
    Senator Merkley. Thank you, Madam Chair. One of the 
contrasts in the testimony that I thought was very stark was 
the difference between Dr. Pachauri's testimony that 11 of the 
last 12 years ranked among the 12 warmest years in the record 
of global surface temperature and Dr. Happer's testimony that 
the last decade has been a cooling period. Could either of you 
or anyone else kind of comment on this dramatic difference and 
what leads you to such starkly opposite conclusions?
    Mr. Happer. Well, I could take a start. You can look at the 
satellite record of the temperature, you could click on the 
Internet, you can find it. And the temperature peaked about 10 
years ago, at the time of an El Nino. And since then, it has 
been slightly trending downward. In fact, it peaked at a time 
when we were at a peak of the records of temperature.
    But they are not very old. For example, we don't have good 
records of temperature in the 1930s. My guess is it was 
probably hotter in the 1930s, but it is certainly consistent 
that the last 10 years could be high temperature years if the 
record of temperature only goes back 40 years.
    Senator Merkley. So for me to clarify, you are using the 
same, we are talking apples to apples, you are talking about 
the global surface temperature, not in a particular part of the 
globe and so forth?
    Mr. Happer. The satellite temperature, yes.
    Senator Merkley. Dr. Field.
    Mr. Field. Yes, 2008 was the ninth warmest year in the 
instrumental record. The two warmest years were 1999 and 2005. 
It is difficult to tell for sure, because they were about the 
same. And there is no question that all the warmest years in 
the record have been recent ones.
    There is also no question that the current temperatures are 
warmer than any time we have seen in the last 400 years, and 
very likely for the last 2,000 years. It also is very difficult 
to say that in a domain with strong directional warming, we 
wouldn't see an occasional warm year. The climate is a very 
complicated system, and we want to make sure that we don't set 
people up to be misled by a single exceptionally hot year or a 
single exceptionally cool year.
    Mr. Pachauri. Senator, I projected a picture of global mean 
surface temperature going back in time to the middle of the 
19th century. And I clearly indicated, unfortunately not 
adequately due to shortage of time, that there are ups and 
downs in this record.
    But if you look at the last 100 years, for which I showed 
you a line that essentially shows the slope of changes, and 
particularly deal with the last 50 years, then the trend is 
unmistakable. We are on a path of increased warming, and there 
is no question about it. And we are not talking about 
predictions of the weather, as Professor Field has rightly 
said. You could get a terribly cold year, you could get a 
terribly hot year. But it is the trend, and the pattern that we 
should really be concerned about.
    Senator Merkley. Thank you. If I could just follow up on 
that, I did find your chart very useful. You said the kind of 
trend line for 100 years is .074 degrees Centigrade per decade, 
the last 50 years .128 degrees Centigrade per decade. And my, 
by the estimates of how much the temperature might increase 
over the next 50 to 100 years, I am assuming that it appears 
very likely that the number of Centigrade degree increase per 
decade is very likely to increase substantially beyond that.
    If one was to take, for example, and look at just the next 
decade, where is kind of the estimate for that decade?
    Mr. Pachauri. Well, if we do nothing, Senator, then we 
would get an increase of about 0.2 degrees Celsius per decade. 
That is the kind of increase that we see. But this would become 
much sharper if we don't do anything about the problem, but 
that is the immediate projection.
    Senator Merkley. So I want to follow up on one last piece 
here, which is the line of carbon dioxide parts per million in 
the atmosphere, going from 280 historically to 380. It sounds 
like there is a lot of consensus across everyone's testimony in 
that regard. Is there still substantial belief in the 
scientific community that if we don't constrain the part per 
million at about 400 parts per million that we are on a, very 
difficult to reverse the trend of global warming that we are 
on? Are we in the, we use the terrorist alert signals if we 
will, are we on the orange zone or the red zone or just how 
close are we to a situation where it would be very hard to 
reverse the impact?
    Mr. Pachauri. Senator, if we want to limit global mean 
temperature increase to say, 2 to 2.4 degrees Celsius, then we 
have to stabilize CO<INF>2</INF> equivalent concentration 
levels at between 445 to 490 parts per million. Now, that is 
just a little above where we are today. And that is why I said 
we have just about 6 years left in which we will have to bring 
about peaking of emissions and then start reducing them 
thereafter. And we have got, in the IPCC Fourth Assessment 
Report, several scenarios of reduction that need to be achieved 
for different levels of temperature increase.
    Senator Merkley. Dr. Happer, you wanted to respond? Very 
briefly, because my time has run its course.
    Mr. Happer. I just wanted to say a few things. Many people 
don't realize that over geological time, we are really in a 
CO<INF>2</INF> famine now. Almost never has the CO<INF>2</INF> 
level been as low as it has been in the Holocene, 280, that is 
unheard of. Most of the time it is at least 1,000, and it has 
been quite a bit higher than that. The earth was just fine in 
those times. We evolved as a species in those times when the 
CO<INF>2</INF> levels were three or four times what they are 
now. And the oceans were fine, plants grew fine, animals grew 
fine.
    So it is baffling to me that we are so frightened of 
getting nowhere close to where we started.
    Senator Merkley. My time is up.
    Senator Boxer. Take a little extra time, because this is a 
weird kind of place you have taken us to. Because you are 
taking us back how many years, Dr. Happer? To when we were 
fine?
    Senator Merkley. Pleistocene, I think was the----
    Ms. Happer. Well, most people think primate evolved about 
80 million years ago.
    Senator Boxer. OK, there you go. I don't even know how to 
say this, but a lot has happened since then----
    [Laughter.]
    Senator Boxer [continuing]. In terms of where people are 
living and working. We have a society now. So to say go back to 
those days, I shudder to think of what it means is going to 
happen. So either I am missing something or you just don't seem 
to think times have changed.
    Mr. Happer. Well, I don't think that the laws of nature, 
physics and chemistry have changed in 80 million years. Eighty 
million years ago, the earth was a very prosperous place. There 
is no reason to think it will suddenly become bad now.
    Senator Boxer. OK. Dr. Field, if things were to go back the 
way it was then in terms of the amount of carbon in the air, 
which Dr. Happer said was wonderful times, how much was in the 
air then, sir?
    Mr. Happer. It is a little hard to be sure, but three or 
four times what we have now.
    Senator Boxer. Three or four times more, what would happen 
to the people here? And could you just talk reality? Because, 
don't do it from up here, do it from here. And this is not 
coming off Senator Carper's time. I am going to give him two 
extra minutes because of this. But I feel this is really the 
most extraordinary argument I have ever heard, that we could go 
back to the times that were so long ago and everything would be 
fine. You need to talk to me about that.
    Mr. Field. I would like to give you two observations that 
are well-known from the historical data. We know that the 
CO<INF>2</INF> concentrations are higher now than they have 
been at any time in the last 650,000 years. It is not like it 
was yesterday when they were higher.
    We know the last time they were higher for sure was 
probably about 50 million years ago. I am sorry the Senator 
from Wyoming isn't here, because 50 million years ago there 
were crocodiles in Wyoming. We might go back----
    Senator Carper. Some would say there still are.
    [Laughter.]
    Mr. Field [continuing]. To a very, very different world.
    Senator Boxer. Well, that is the point. I mean, we are 
trying to preserve society as we know it and Dr. Happer says, 
just go back to the way it was 50 million years ago. I am not 
telling that to my grandkids.
    Senator Merkley, since that was your good--I will give you 
a minute or two and then I will give Tom as much time.
    Senator Merkley. I want to say a few things. The first is 
that homo sapiens were not on this planet during the 
Pleistocene. And so we are indeed talking about ecosystems that 
have changed dramatically and certainly human civilization 
having come and been established far more recently.
    The second is, I just have to comment on the parallel you 
drew to Prohibition. It would seem if you draw the parallel to 
the issue of being concerned about the health impacts of 
alcohol then the parallel would be, your commentary would be, 
increased alcohol consumption is not much of an issue, doesn't 
have a health consequence, might even be beneficial.
    After 10 years of testimony in the State of Oregon on the 
impacts of alcohol consumption on health and the huge toll it 
takes on families, I say if you really want to exploit that 
parallel you might come to a very different conclusion about 
rising temperatures.
    Mr. Happer. May I respond?
    Senator Boxer. We are not going to have responses now. We 
are going to go to Tom Carper.
    Senator Carper. Thank you, Madam Chair.
    That was pretty good, Senator Merkley. Very good.
    I was an undergraduate, went to Ohio State University. From 
time to time I go back and visit my old alma mater. I was last 
there a little over a year ago, and I spent some time in the 
Polar Research Center there. It is run by a couple of folks 
that several of you know, Drs. Lonnie and Ellen Thompson. They 
were good enough to share with me their research, which 
involves, I think, climbing tall mountains in places along the 
equator, going up to the ice caps and trying to measure, 
collect ice samples and measure levels of CO<INF>2</INF> that 
go back hundreds of thousands of years, maybe close to a 
million years.
    And my recollection of what they shared with me that day 
was that if you go back about that far over 500,000, over 
600,000, over 7000,000 years, you find that the, and look from 
back then to the present, you will find that we are going 
through a period of time where levels of CO<INF>2</INF> are 
probably higher than any time in all the years represented in 
their samples. They also show a pretty close correlation to 
increases in temperature with the increases in CO<INF>2</INF>.
    Are you all at all familiar with their research and do you 
have any comment on it? Dr. Field.
    Mr. Field. There is a very rich body of information that 
has come from the study of ice cores. The longest ice cores 
come from Antarctica where there is incredibly deep ice. And 
those have been incredibly useful in mapping out the trajectory 
of ice ages and interglacials that we have experienced. Those 
have also been incredibly important for figuring out how 
powerful the effect of CO<INF>2</INF> on climate is. 
Essentially, we know that the ice ages are triggered by small 
changes in the shape of the earth's orbit, and we can calculate 
the physics very precisely of how much warming that would 
cause.
    There is information stored in the ice cores that tells us 
how much warming actually occurred, and then we can use the 
difference between the amount that the change in the shape of 
the orbit should have caused and the amount that actually 
occurred as one of the most effective ways to figure out 
powerful a climate forcing agent the CO<INF>2</INF> is, and a 
lot of the information we have on the climate sensitivity comes 
from those ice cores.
    Senator Carper. Dr. Pachauri.
    Mr. Pachauri. Senator, I would just like to mention that 
over the last 650,000 years, as Professor Field has mentioned, 
we have had remarkable stability in the concentration of carbon 
dioxide in the earth's atmosphere. And I would also like to 
mention that about 125,000 years ago, when we had warming more 
or less at the same level that we are heading toward today, but 
that was for very different reasons, we had sea level rise of 
several meters. And I think that is the kind of thing that we 
might be heading toward that has been brought out very clearly 
in the IPCC Fourth Assessment Report.
    Senator Carper. Stay on sea level risk if we could for a 
little bit. Just by a show of hands, has anyone on our panel 
ever been to Delaware? Oh, good for you. A State not known for 
its mountains or hills. In fact, I kid people, and I say, I 
think in my State, the highest point of land in my State is a 
bridge. We have great beaches, though. And a lot of people do 
come to our beaches.
    We are told that, according to the IPCC, that if global 
temperature rises I think by about 2 degrees Celsius in the 
years to come, we are going to see a sea level rise of close to 
two feet. No, I think it is close to four feet, maybe four to 
five feet. My understanding is that this would not be a good 
thing for my State of Delaware. And I say with tongue in cheek 
that instead of people going to the beaches to swim or surf at 
Bethany or Rehoboth or Dewey Beach they would go to Dover Beach 
or Wilmington Beach or Newark Beach, and instead of going to 
NASCAR racing at Dover Downs, they would go there for sailboat 
regattas.
    I just want to ask, what you, setting aside those thoughts, 
but the threat of that kind of sea level rise, as much as three 
or four or five feet, with a rise in temperatures of maybe 2 
degrees Celsius, what might that impact be for us on the East 
Coast? Even around here in Washington, DC?
    Mr. Pachauri. Senator, even with a 2 degree increase in 
temperature, we have estimated that due to thermal expansion of 
the oceans alone, worldwide we would get sea level rise, and 
this is thermal expansion alone, of 0.4 to 1.4 meters. So let's 
say you are somewhere in the middle of that range. We are 
talking about at least a two feet increase in sea level.
    And this is something that in a sense, the world has 
already been committed to, so we have to do something to bring 
about a reduction in that. And quite apart from the impacts on 
the U.S., may I say that there are several small island states 
that will be completely wiped out. The country of Bangladesh, 
which has over 160 million people, will have no place to go, 
and several other regions of the world.
    But I will let Professor Field talk about that, if you 
permit.
    Senator Carper. Yes, the East Coast, just talk about--I 
appreciate very much your mentioning the island states and 
Bangladesh. But the East Coast.
    Mr. Field. The impacts of a modest sea level rise, and I 
hate to say modest, because two to four feet is big in terms of 
impacts, but even a small amount of sea level risk can have big 
impacts. A specific example, I will start with California and I 
will get to the East Coast in a minute. In the delta of the 
Sacramento River, we know that a one foot sea level rise is 
enough to change the once in a 100 year flood to once every 10 
years. That is what we really see. If you look at the damages 
from sea level that comes from the extremes, and what you see 
is even a small amount of sea level rise of a few inches, can 
make the extremes come dramatically more frequent. When you get 
up to two to four feet, you are seeing the once in a 100 year 
flood come every year.
    The other thing that is really important in the eastern 
U.S. where there are big estuaries is that sea level increase 
in the one to two to three feet range can essentially eliminate 
all the estuaries, and especially important in urbanized areas 
where you have a squeeze between the developed zone and the 
open water, essentially the rising sea level just pushes the 
water right up to the sea walls or whatever the retaining 
structures are that each community has erected.
    Senator Carper. Thank you both for those comments.
    Let me ask, one other question, and that is, well, let me 
go back to Drs. Ellen and Lonnie Thompson for a moment. If you 
were a critic of their research and you were trying to poke a 
hole in the work that they have done, how would you go about 
doing that? How could their work be discredited? Any ideas?
    Mr. Pachauri. I am sorry, I didn't quite get whose work you 
would----
    Senator Carper. The people I talked to at Ohio State 
University, Drs. Lonnie and Ellen Thompson. How would you go 
about discrediting their work if you were trying to poke holes 
in it?
    Mr. Field. Well, I am a great fan of their work, I would 
certainly never try to discredit it. And as in most areas of 
science, there are many teams that have drilled these ice 
cores. The Thompsons are the specialists in high altitude 
alpine ice cores. And the patterns that they see are in many 
cases very similar to the patterns that come from other teams 
that have drilled ice cores in Greenland and other teams that 
have drilled ice cores in Antarctica. You see a progression of 
the atmospheric CO<INF>2</INF> varying between about 200 parts 
per million during the ice ages, about 280 during the 
interglacials. And I think that in all science, the whole idea 
is that it should be testable and repeatable. There are many 
groups that are out there doing the tests. I think that the 
overall body of information from the ice cores has stood the 
challenge of a great many tests already.
    Senator Carper. All right, thank you.
    Last question I will ask, just a short one. I understand 
recent studies have shown that sulfur dioxide and black carbon 
may be global warming agents. And I just wonder, is the IPCC 
looking at these pollutants and their contributions to climate 
change?
    Mr. Pachauri. Yes, as a matter of fact, we have looked at 
that, Senator, even in the Fourth Assessment Report. 
Undoubtedly this is a factor, but may I submit that this is 
something that really doesn't have an impact uniformly across 
the globe. Because the extent of black carbon that you have is 
largely a localized phenomenon. Of course, it moves from one 
region to the other. But this is clearly a factor. It would 
have an impact, for instance, as has been found, on the 
monsoons in South Asia and in other parts of Asia. It certainly 
had an impact in China, to some extent.
    So it is a very localized phenomenon. And we are finding 
out more and more about this situation.
    Senator Carper. Our thanks to each of you for joining us 
today and for your work and your testimony. Thank you.
    Senator Boxer. Thank you.
    Well, to the panel, you have been very gracious with your 
time. I am very grateful to all of you for coming, all of you, 
including our dissenter, because I think we got somewhere 
today. I now see it clearly. If we decide that more and more 
carbon dioxide in the atmosphere is fine and it was just great 
50 million years ago, when there was three to four times as 
much, I mean, if we decide that, and we don't mind that things 
changed dramatically for our people.
    I could tell you in California, this is important, that the 
preliminary analysis from our bill there addressing global 
warming is going to avoid 400 premature deaths, 11,000 
incidences of asthma and lower respiratory symptoms and 67,000 
lost work days by 2020. That is something that is good. If we 
don't do it, people are going to die. Simple. Straightforward. 
Going to get sick and they are going to die.
    Now, if you think going back to all those years ago and 
those levels and everything is wonderful and fine and that is 
your view of the future, God bless you. But I don't agree. I 
will fight you ever step of the way. I view it as uncaring, I 
view it as irresponsible. If anything we need to do, it is to 
leave this planet in the condition as good as we got it from 
our parents.
    We are going to work at it in this Committee. We are going 
to have that choice between my colleagues who say, do nothing, 
the party of nope, versus do something, the party of hope. And 
in doing so, we are going to make our Country far more 
prosperous. I will tell you, this is a great issue for us in 
this Committee.
    And nothing good comes easy. It was hard for this 
Committee, long before we were here, to pass the Clean Water 
Act, the Safe Drinking Water Act, the Endangered Species Act, 
the Superfund Program, this Committee has an amazing, amazing 
record of stepping up to the plate. And we did it last year, we 
are going to do it this year.
    And we have been challenged by our President. I couldn't be 
more proud of this Committee. And Senator Inhofe and I, you 
know, we kid a lot, but we really do have a fondness for each 
other. On this issue, it is like Dr. Happer and Dr. Pachauri. I 
mean, it is just, we are definitely coming from a very 
different place, and as we see today, a very different time.
    [Laughter.]
    Senator Boxer. I didn't really know it went back that far. 
But now, this is giving me new energy for this fight.
    So thank you to my Committee, both sides. Thank you to this 
illustrious panel. Maybe you didn't feel like you were helping 
us, but you really did help us today, all of you. Thank you 
very, very much, and we stand adjourned.
    [Whereupon, at 12:28 p.m., the Committee was adjourned.]
    [Additional statement submitted for the record follows:]

                     Statement of Hon. Mike Crapo, 
                  U.S. Senator from the State of Idaho

    Ms. Chairwoman, thank you for the opportunity to share a 
few words. Also, thank you to the witnesses for being here with 
us today to discuss the science of climate change.
    As a new member of the Senate Environment and Public Works 
Committee, I am looking forward to robust and thorough 
discussions about the environmental challenges facing our 
Nation and our world. I am equally hopeful that we will fully 
explore all available solutions to some of the most pressing 
issues of our day such as: ending our Nation's foreign 
dependence on oil, achieving energy security and finding ways 
to promote clean energy. Solutions to these issues will make 
our Nation safer, stronger, and provide a cleaner world for our 
children and grandchildren.
    The best way to promote the goals of a clean, healthy 
environment is through a framework of incentives for clean 
energy production. Incentives for wind and solar are important, 
but a realistic goal for the advancement of clean energy must 
include incentives for nuclear energy production, carbon 
capture and sequestration, geothermal and hydropower.
    In this time of economic turmoil, we need to find a way to 
promote clean energy faster and cheaper, and I am concerned 
about the costs of past proposals before this Committee.
    For example, the Environmental Protection Agency estimated 
that S. 3036, the Lieberman-Warner Climate Security Act would 
cost $6.7 trillion to implement. Yet, the National Association 
of Manufacturers estimated that this legislation would cost our 
economy 3-4 million jobs. Passage of this type of legislation 
would absolutely negate the predicted benefits of the Stimulus 
package, which President Obama has stated will ``save or 
create'' 3.5 million jobs. Therefore we should proceed very 
cautiously--carefully analyzing the implications of all climate 
proposals before this Committee.
    Since 2001, the United States has spent over $35 billion on 
global climate change initiatives, more than all other 
countries combined. This money has been spent on investments in 
clean technologies, international partnerships, and clean 
technology usage. We are also beginning to see the fruits of 
our legislative labor as the Energy Policy Acts of 2005 and 
2007 begin to take effect and make a real difference to the 
Nation's domestic energy portfolio.
    Today, there are 17 companies and consortia pursuing 
licenses for 26 new nuclear reactors, representing an 
investment of approximately $80 billion to $100 billion and the 
creation of thousands of jobs. Plans are in place to build 
cellulosic ethanol plants using loan guarantees and incentives 
from the 2005 and 2007 Energy Bills, and there has been a 
significant investment in renewable power sources.
    To ensure that we transition to clean energy at the lowest 
cost to the consumer, we could take steps to create a Clean 
Electricity Standard that rewards a broad array of advanced 
clean sources, like: nuclear power, clean coal, hydro-power, 
efficiency, and renewable sources. We can also focus on 
improving management of our Nation's forests, allowing the 
forests to double the current amount of sequestered carbon.
    These approaches will ensure American energy independence, 
create jobs, and grow the U.S. economy. This will also provide 
a roadmap for others to follow, sharing the best economic and 
environmental solutions for the U.S. with developing nations 
around the world.
  

                                  [all]
                                  
</pre></body></html>
